<html>
<title> - FEDERAL EFFORTS TO COORDINATE AND PREPARE THE UNITED STATES FOR BIOTERRORISM: ARE THEY READY?</title>
<body><pre>[Senate Hearing 107-213]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-213

                   FEDERAL EFFORTS TO COORDINATE AND
                     PREPARE THE UNITED STATES FOR
                     BIOTERRORISM: ARE THEY READY?

=======================================================================

                             JOINT HEARING

                               before the

                          GOVERNMENTAL AFFAIRS
                               COMMITTEE
                          UNITED STATES SENATE

                                and the

                 INTERNATIONAL SECURITY, PROLIFERATION
                   AND FEDERAL SERVICES SUBCOMMITTEE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                            OCTOBER 17, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


76-807              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
               David M. Berick, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
      William ``Bill'' M. Outhier, Minority Investigative Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                   Richard J. Kessler, Staff Director
               Sherri Stephan, Professional Staff Member
               Mitchel B. Kugler, Minority Staff Director
         Eric E. Desautels, Minority Professional Staff Member
                      Brian D. Rubens, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     4
    Senator Akaka................................................     5
    Senator Collins..............................................    19
    Senator Levin................................................    22
    Senator Durbin...............................................    25
    Senator Carnahan.............................................    30
Prepared statement:
    Senator Bunning..............................................    75

                               WITNESSES
                      Wednesday, October 17, 2001

Hon. Tommy G. Thompson, Secretary, U.S. Department of Health and 
  Human Services.................................................     7
Michael D. Brown, Acting Deputy Director and General Counsel, 
  Federal Emergency Management Agency............................    34
Hon. Deborah J. Daniels, Assistant Attorney General, Ofice of 
  Justice Programs, U.S. Department of Justice...................    37
Henry L. Hinton, Jr., Managing Director, Defense Capabilities and 
  Management, U.S. General Accounting Office.....................    40
Anna Johnson-Winegar, Ph.D., Deputy Assistant to the Secretary of 
  Defense for Chemical and Biological Defense, U.S. Department of 
  Defense........................................................    42
Gary W. McConnell, Director, Georgia Emergency Management Agency, 
  on behalf of the National Emergency Management Association.....    53
Maureen E. Dempsey, M.D., F.A.A.P., Director, Missouri Department 
  of Health and Senior Services..................................    58
Margaret A. Hamburg, M.D., Vice President for Biological 
  Programs, Nuclear Threat Initiative............................    62
Amy E. Smithson, Ph.D., Director, Chemical and Biological Weapons 
  Nonproliferation Project, The Henry L. Stimson Center..........    66

                     Alphabetical List of Witnesses

Brown, Michael D.:
    Testimony....................................................    34
    Prepared statement...........................................    89
Daniels, Hon. Deborah J.:
    Testimony....................................................    37
    Prepared statement...........................................    96
Dempsey, Maureen E., M.D., F.A.A.P.:
    Testimony....................................................    58
    Prepared statement...........................................   143
Hamburg, Margaret A., M.D.:
    Testimony....................................................    62
    Prepared statement...........................................   152
Hinton, Henry L., Jr.:
    Testimony....................................................    40
    Prepared statement...........................................   107
Johnson-Winegar, Anna, Ph.D.:
    Testimony....................................................    42
    Prepared statement...........................................   124
McConnell, Gary W.:
    Testimony....................................................    53
    Prepared statement with an attachment........................   132
Smithson, Amy E., Ph.D.:
    Testimony....................................................    66
    Prepared statement...........................................   164
Thompson, Hon. Tommy G.:
    Testimony....................................................     7
    Prepared statement...........................................    77

                                Appendix

Chart submitted by Mr. Hinton entitled ``Examples of Coordination 
  Activities on Bioterrorism Among Federal Departments and 
  Agencies''.....................................................   123
Letter from the U.S. Department of Justice responding to question 
  posed by Senator Akaka to Ms. Daniels, dated June 25, 2002.....   176
Meryl Ness, M.D., prepared statement.............................   178

 
    FEDERAL EFFORTS TO COORDINATE AND PREPARE THE UNITED STATES FOR 
                     BIOTERRORISM: ARE THEY READY?

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2001

                                     U.S. Senate,  
                     Committee on Governmental Affairs,    
                    and the Subcommittee on International  
             Security, Proliferation, and Federal Services,
                                                    Washington, DC.
    The Committees met jointly, pursuant to notice, at 9:37 
a.m., in room SD-342, Dirksen Senate Office Building, Hon. 
Joseph I. Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Thompson, Akaka, Levin, 
Dayton, Carnahan, Durbin, Domenici, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
all of you for being here, particularly our witnesses.
    This morning, this Committee will try to provide answers to 
the urgent question of whether our government at all levels is 
organized adequately to respond to biological and chemical 
attacks on the American homeland. Senator Thompson, who will be 
here in a few moments, and I are pleased to hold this hearing 
in conjunction with the Subcommittee on International Security, 
Proliferation, and Federal Services and its able Chairman and 
Ranking Member, Senator Akaka of Hawaii and Senator Cochran of 
Mississippi.
    As we are now painfully and, in this Capitol Hill area, 
personally aware, the past week has brought one story after 
another of anthrax attacks, biological attacks, endangering 
hundreds of innocent civilians and actually infecting over a 
dozen people, and by this morning's calculation, actually, a 
significant number more throughout the United States.
    Here on Capitol Hill, a wing of the Hart Building was 
quarantined. Senators and staff were undergoing testing and 
mail delivery came to a halt when anthrax was identified in a 
package delivered to the Majority Leader's office. We have 
received word today, which I presume will be dealt with in an 
announcement that will be made this morning, that a number of 
members of Senator Daschle's staff are now known to have been 
infected by the anthrax that came to his office and they are 
being treated appropriately.
    These incidents and the countless false alarms and hoaxes 
people are experiencing daily have put many Americans into an 
understandable state of high anxiety over this threat to our 
public health.
    This morning, I hope, and am confident, that we can calmly 
discuss the facts, offer reassurance to the public that the 
Federal Government is on duty and rapidly improving our 
preparedness to respond to whatever may come. The sad fact is 
that we have now entered an era when the previously 
theoretical, with regard to chemical and biological attacks, 
has become altogether real.
    Although it is clear to me that our government still has a 
lot of work to do, the reassuring fact is that the response of 
our Public Health System over the last 2 weeks is just about 
what we would have hoped it would be. There has been quick 
detection, identification, treatment, and containment of the 
problem and that has clearly and thankfully minimized the 
casualties.
    I want particularly to commend our first witness, Secretary 
of Health and Human Services Tommy Thompson, for his leadership 
in responding to this crisis, in calming a tense Nation, and in 
urgently acting to improve our response systems to this now 
very real threat.
    The Governmental Affairs Committee is an oversight 
committee. We are charged with the specific mandate to ensure 
that the Federal Government is organized effectively to fulfill 
its responsibilities. In today's hearing, therefore, we are 
going to focus on the organizational aspect of this new threat, 
and that is the question of whether we are organized and 
coordinated adequately, since there are scores of Federal 
bureaus and departments that are involved and will continue to 
be involved in responding to bioterrorism or chemical 
terrorism.
    Ten major agencies and dozens of bureaus, including the 
Defense Department and the intelligence agencies, are 
responsible for, among other things, threat assessments, 
surveillance of disease occurrences, surveillance of food and 
water supplies, developing and stockpiling vaccines, and 
assisting State and local governments in planning, training, 
and responding.
    Secretary Thompson's Department itself has six different 
agencies involved in bioterrorism and chemical terrorism, which 
is why, Mr. Secretary, I think it made such good sense and was 
an act of real leadership for you to appoint a Department 
coordinator last July, before the current threats became real.
    This morning, we are also going to look at coordination 
between the Federal Government and State and local governments 
and their public health systems because these are the people on 
the front lines of homeland defense and they will be called 
upon to respond first.
    The possibility of a biological or chemical attack poses a 
completely different kind of threat, requiring a different kind 
of response, from a different set of responders than the one we 
witnessed on the dark day of September 11. That day, events 
were visibly and immediately seen by, in fact, millions of 
people on television and the catastrophe required conventional 
fire, rescue, and medical capabilities, obviously on a large 
and huge scale.
    On the other hand, a biological or chemical attack might 
well unfold in a very different way. It might not be 
immediately visible. It could emerge slowly in different 
locations, in neighborhoods, offices, workplaces, in mailrooms, 
doctor's offices, clinics, emergency rooms, and public health 
department laboratories. And a completely different set of 
people, mostly medical personnel, would be the first to 
respond. They would be our first line of defense.
    Some biological agents, such as smallpox, are contagious 
and would spread rapidly throughout the population. A 
government exercise simulating a biological attack conducted 
earlier showed that such diseases could, in fact, greatly 
challenge State and local medical capabilities to respond.
    But there is some better news here and that is that we do 
have systems and equipment in place to respond to an attack of 
this sort, and as we are going to hear today, the Federal 
Government has really begun to organize the pieces that will be 
needed to contain biological or chemical attacks that might 
occur on a large scale.
    The Health and Human Services Department is, for instance, 
developing an Internet-based surveillance system to gather data 
on disease incidents that would allow a real-time analysis. The 
Pentagon is developing civil support teams within the National 
Guard in every State. And State and local officials are 
increasingly well trained to deal with these attacks.
    But the systems that are in place clearly need to be 
strengthened. Real preparation for these types of attacks did 
not even begin at the Federal level until the late 1990's, so 
many agency plans and programs are still incomplete. There is 
duplication and overlap because of traditional government 
stovepipe structures and the inevitable turf battles that 
accompany this kind of overlap. Add to this the fact that there 
does not appear to be one single central executive agency 
involved and it is hard not to conclude that the Federal 
Government has a series of organizational decisions to make, 
and quickly.
    Federal support for State and local governments and health 
care systems must also grow to meet the growing challenge. 
These are the agencies that employ the local heroes, the 
emergency medical technicians, the police, the fire fighters, 
and the hospital emergency room workers.
    While Federal funding for response to terrorist attacks 
involving biological and chemical weapons has increased in the 
past 3 or 4 years, not enough of that, from what I can see, is 
reaching the State and local levels. We need, therefore, to 
build a robust Public Health System now, capable of aggressive 
surveillance programs, early warning systems to quickly detect 
the onset of illnesses and then respond immediately. We need 
adequate inventories of the appropriate pharmaceuticals and we 
need better coordination and support for State and local 
governments and their health care systems.
    It seems to me that, ultimately, only the Federal 
Government can ensure that the capabilities to protect our 
citizens in the event of biological and chemical attack are in 
place, and I hope this hearing and, in fact, this Committee can 
help the Federal Government do that as quickly as possible.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman, and I 
thank Secretary Thompson for being with us. I, too, want to 
commend him for the steadying influence he has had on all of 
this. It is a delicate balance that he and others in the 
administration have to walk in telling the truth to the 
American people on the one hand and not being unduly alarmist 
on the other, and frankly, I think you are doing an excellent 
job of that.
    Last Friday, we held a hearing to discuss the structure of 
the new Homeland Security Office in the administration. Today, 
we look a little closer at some of the more specific challenges 
that the Director of that office will face with regard to 
biological and chemical attacks.
    Concerns about these issues are not new. Two months ago, 
the International Security, Proliferation, and Federal Services 
Subcommittee held a hearing to discuss our level of 
preparedness for a biological attack. There have been over ten 
different hearings held in Congress this year on the biological 
and chemical threat and the Federal Government's response 
capabilities. Moreover, in the ``Government at the Brink'' 
report I released earlier this year, I noted that combatting 
terrorism was an area of potential overlap and fragmentation, 
issues that I believe we will be discussing more today.
    While these concerns may not be new, there is a new sense 
of urgency. There have been anthrax attacks now in three 
States, as well as here in Washington. Our Committee office was 
shut down yesterday and again today because of its proximity to 
Senator Daschle's office, and our staff has had to undergo 
testing. Mr. Chairman, your own personal office has been shut 
down.
    Clearly, we no longer have the luxury of time to deal with 
the bioterrorism threat and our government's response. The 
challenge we have before us is to determine how we can, at the 
Federal level, best prepare our country for chemical and 
biological attacks.
    As a Nation, we do have certain priorities in this area. 
First, ensuring that local officials are prepared for an 
attack. Especially in dealing with a biological attack, the 
first responders on the first line will be the local medical 
personnel and community public health officials. How well 
trained and ready they are will be the biggest factor in our 
success or failure in dealing with these attacks.
    Second, the Federal Government must provide proper support 
to local first responders in the event of an attack. That 
support could come in the form of response teams, 
pharmaceutical supplies, law enforcement, as well as other 
efforts.
    And third, the Federal Government can continue to provide 
research to aid in the surveillance, detection, and treatment 
for biological and chemical attacks.
    The good news is that there are many Federal agencies 
working on all of these issues. The bad news is that there are 
many Federal agencies working on all of these issues. As GAO 
recently stated in a report, coordination of Federal terrorism 
research preparedness and response programs is fragmented. 
Several different agencies are responsible for various 
coordination functions, which limits accountability and hinders 
unity of effort.
    I think it is probably appropriate to point out that this 
is not true just with regard to this issue of terrorism. It is 
endemic throughout government. We are just simply following a 
familiar pattern.
    In our ``Government at the Brink'' report, we listed 
examples of program overlap and fragmentation and we listed and 
discussed in some detail with numbers problem areas: Border 
patrol; combatting terrorism was second; community development; 
drug control, prevention and treatment; early childhood 
development; economic development; education; environmental 
programs; Federal land management; Federal property management; 
financial regulation; food safety; foreign relations; 
homelessness; international trade; and law enforcement--at 
least 45 different Federal agencies conduct Federal criminal 
investigations; military acquisitions; military health care; 
nuclear health and safety; people with disabilities, research 
and development; rural development; satellite control systems; 
statistical programs; teen pregnancy prevention; and youth 
programs. All of these have overlap and duplication problems.
    We follow a familiar pattern in our country, it seems. We 
ignore for a long time clear and present dangers. We have been 
having hearings and being told about these things for at least 
a decade, and during all that time, we add program on program 
on program. Then we get our attention and we want to go in and 
do something fast and we begin to consolidate, but just with 
regard to that particular area that we are having a problem 
with at that particular point. So we are following a particular 
pattern here.
    But other problems exist. The Federal Government tends to 
spend most of its resources at the Federal level rather than on 
the front lines. As one of our witnesses today, Dr. Smithson, 
noted in her book on this subject, just 3.7 percent, or $315 
million of the overall $8.4 billion counter-terrorism budget in 
2000 went to the front lines in the form of training, equipment 
grants, and planning assistance. She says, ``Bluntly put, an 
absurdly small slice of the funding pie has made its way beyond 
the beltway.'' We are spending a great deal of money on this 
problem and we will need to make sure it is spent more 
efficiently.
    Also, the large number of Congressional committees 
asserting jurisdiction in this area has resulted in several 
different agencies receiving authorization for activities that 
overlap.
    So I look forward to hearing from our witnesses today and I 
hope we can discuss not only what problems may exist with 
regard to coordination and fragmentation in our fight against 
biological and chemical terrorism, but also ways that we can 
improve the efficiency and effectiveness of the Federal 
response to such attacks. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Thompson, for that 
statement.
    I would like to now call on the Chairman of the relevant 
Subcommittee, Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I am 
delighted to be here and I want to thank you for holding this 
joint hearing. I want to welcome our Secretary, Mr. Thompson, 
and add my commendation to what you are doing for bringing 
better understanding to the problems that we are facing and 
bringing also a calming effect on the people of our country and 
I thank you for that.
    The Subcommittee on International Security, Proliferation, 
and Federal Services, which I Chair, has been working on 
bioterrorism for a long time. In July, the Subcommittee had a 
hearing on FEMA's role in managing bioterrorist attacks and the 
impact of public health concerns on bioterrorism preparedness. 
Representatives from FEMA and HHS discussed the activities 
underway by dedicated Federal employees across the government 
to prepare our communities for a biological crisis.
    We learned that, contrary to current press reports, the 
Federal Government is not unprepared, as evidenced by the rapid 
response of the CDC and FBI to the anthrax exposures in Florida 
and New York. However, preparedness levels are not uniform or 
consistent across the United States. There are considerable and 
serious problems. While not unprepared, we are clearly under 
prepared.
    Today, I plan to introduce three bills that will deal with 
some of these problems. I would welcome any of my colleagues 
that would like to join me in these initiatives. We lack the 
tools to monitor the air, water, and food supply continuously 
in order to detect rapidly the presence of biological agents. 
One bill will increase our efforts to develop the necessary 
tools to minimize the impact of bioterrorism by reducing the 
number of people exposed and alerting authorities and medical 
personnel to a threat before symptoms occur.
    The second measure addresses a part of the larger question 
as to how our health care workers are prepared and trained for 
bioterrorism or any biological crisis. Senator Rockefeller and 
I propose using the existing emergency communications 
infrastructure, disaster training program, and community 
partnerships within the Nation's 173 VA hospitals to train both 
VA hospital staff and local health care providers.
    The third piece of legislation addresses a related but 
distinct set of concerns, the safety of our agriculture. I will 
introduce the Biosecurity Agricultural Terrorism Act of 2001. 
This bill will enhance Federal efforts to prevent, prepare, 
plan, respond, and recover from acts of agricultural terrorism. 
It would do the same for naturally occurring agricultural 
epidemics by prioritizing efforts, authorizing funding, and 
establishing new policy guidelines. The measure addresses risks 
and gaps in our law on foreign biosecurity, agricultural 
monitoring and surveillance, response and recovery efforts, 
vaccine treatment research, and other aspects of biosecurity.
    Our proposals address several critical parts of the puzzle 
we are to solve. A complex Federal interagency process governs 
our preparation for bioterrorism and naturally occurring 
medical crises. The Nation's response to current threat must 
strengthen and augment existing Federal programs, minimize 
confusion or duplicity in program efforts, and work to prepare 
all communities, from the largest city to the smallest rural 
town, for biological incidents.
    During our hearing in July, Dr. Tara O'Toole of the Johns 
Hopkins Center for Bio-Defense Studies cautioned that we may 
have spent too much time asking who is in charge. Identifying 
one single agency that commands all resources is not as 
essential for responding to deliberate or natural outbreaks 
where the first line responders practice constantly in their 
primary responsibility, and that is caring for patients. We 
must ensure that these new first line responders, doctors and 
nurses, have the training, tools, and resources necessary to 
respond immediately to an incident and the capacity to cope 
with the several hours or days it will take before Federal help 
can arrive.
    Again, I would like to thank our distinguished Chairman for 
convening today's hearing and our witnesses for taking the time 
to be with us today. Thank you very much.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    With the indulgence of the Members of the Committee, I 
would like to now go to Secretary Thompson. When we go to the 
first round of questions, we will add extra time for each 
Senator so that the Senator can make an opening statement if he 
or she wishes before asking questions.
    I also will note for my colleagues that I received a note 
that at 10:30, there is a meeting, a bipartisan caucus for all 
Senators who wish to attend regarding the latest developments 
in this matter right here on Capitol Hill, particularly in the 
Hart Building, with regard to employees of Senator Daschle's 
office. But it would be my current intention to continue, 
certainly to hear Secretary Thompson's testimony and to allow 
Members of the Committee to question you, and hopefully we can 
get briefed later on as our colleagues will be at 10:30.
    Secretary Thompson, again, you just seem to me to be the 
right man in a tough job at the right time. I appreciate what 
you have done and look forward to your testimony and we all 
look forward to working with you in the days and months ahead.

    TESTIMONY OF HON. TOMMY G. THOMPSON,\1\ SECRETARY, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Thompson. Thank you very much, Mr. Chairman. It is an 
honor for me to appear in front of your distinguished 
Committee. Senator Thompson and Senator Akaka, it is an honor 
to appear in front of this joint Committee and all 
distinguished Members of this body.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thompson appears in the Appendix 
on page 77.
---------------------------------------------------------------------------
    Thank you very much for inviting me to discuss the role of 
the Department of Health and Human Services and the Federal 
Government's efforts to coordinate, prepare for, and respond to 
a biological or chemical terrorist attack.
    In the wake of September 11 and the recent anthrax cases in 
Florida, New York, and here on the Hill, there are significant 
questions about our preparedness, our overall coordination 
within government, and, yes, our ability to respond. Let me 
make one thing clear. The administration is absolutely 
committed to responding to bioterrorism quickly in a 
coordinated and effective manner.
    Our recent efforts on September 11 demonstrate that 
commitment. By the end of that painful morning, I had ordered 
activation of the entire National Disaster Management System, 
including notification of all of its 7,000 volunteer health 
workers and 2,000 hospitals. Those 7,000 volunteer medical 
personnel are distributed to 90 medical teams throughout the 
United States. We were able to get 50 tons of medical supplies 
to New York City in about 7 hours. Our schedule is 12 hours. We 
did it in 7 hours, and even with the airlines shut down. Within 
a couple of days of the terrorist attack, we had 700 doctors 
and specialists on the ground in New York and Pennsylvania and 
in the Pentagon.
    Let me say how very proud I am of the Department of Health 
and Human Services, whose committed health care professionals 
and support staff made a decisive difference in bringing help 
and healing to so many people in the wake of the attack on 
America.
    So, as I have stated before, the Department of Health and 
Human Services is prepared to respond. But as I have also said, 
there is more we must do to strengthen our ability to respond. 
We need to get stronger. Coordination with our Federal, State, 
and local partners is without question an area that I take 
personally, very seriously.
    At the Federal level, President Bush has made bioterrorism 
preparedness a priority, first asking Vice President Cheney to 
develop a coordinated domestic preparedness plan, and recently 
creating the Office of Homeland Security.
    Let me outline for you this morning what steps we are 
already taking. HHS is the lead Federal agency for the public 
health response to any biological or chemical attack. We are 
working vigorously with our Federal partners to coordinate 
domestic preparedness, the Departments of Defense, Justice, and 
Veterans' Affairs, and, of course, the Federal Emergency 
Management Administration, commonly referred to as FEMA.
    We have also made great progress in utilizing the 
expertise, the resources, and the technical support within the 
Federal Government. For example, HHS works with the VA on 
purchasing drug purchases to supplement our Department's 
pharmaceutical supply. Together, HHS and VA are building the 
stockpile effectively.
    And we have partnered with the Department of Defense in 
creating our National Medical Response Teams, which are 
specialized teams capable of treating thousands of individuals 
exposed to chemical, biological, radiological, or nuclear 
attack.
    As many of you know, I was particularly concerned about 
this issue when I came to Washington. I was told many times 
that our bioterrorism efforts needed substantial improvement. I 
read the GAO reports that have already been alluded to this 
morning by Senator Thompson and regarded them as the measure 
against which our efforts could be and should be evaluated. Our 
work over the past 9 months had been performed in light of the 
reports' recommendations.
    I moved our bioterrorism preparedness efforts into my 
immediate office upon being selected Secretary of Health and 
Human Services and I appointed the gentleman on my right, Dr. 
Scott Lillibridge of CDC, one of the Nation's leading experts 
on bioterrorism, to head the Office for National Security and 
Bioterrorism. His office is on my floor in the HHS building.
     And I went out and assembled a team of experts from 
throughout the Department of Health and Human Services, led by 
Dr. Lillibridge, that now are working 24 hours a day, 7 days a 
week, to coordinate the Department's activities in responding 
to public health needs. They are working out of a conference 
room that we have remodeled just a few steps from my office so 
I can be continually updated on the latest developments. They 
also are coordinating HHS's communications with the other 
departments within the Federal Government to ensure that all of 
us have the latest information available.
    We also have assembled a team from other agencies who are 
also spending time in our conference room.
    I have announced several weeks ago that I also was creating 
an advisory committee to my office headed by Dr. D.A. 
Henderson, who is the individual that led the fight to 
eradicate smallpox, to advise the Department on bioterrorism 
activities and State and local preparedness. And since I have 
announced him, he has been in my office every day. I do not 
know if he has a real job or if this is his full-time job, but 
he is there every single day helping us.
    I am also reaching out to State and local governments, as 
well as public health officials. For example, this past 
Saturday, I called together via the teleconference all the 
States' public health departments, our experts at CDC, and 
those in my immediate office to discuss State and local 
preparedness for combatting bioterrorism.
    Tomorrow, Dr. Jeff Koplan of the CDC and myself will be 
doing a simultaneous video conference and webcast with members 
of the American Medical Association and the American Hospital 
Association to be able to answer questions from physicians, 
nurses, and other health professionals concerning how to 
recognize and also how to treat anthrax.
    Then on Friday, I will be speaking to our Nation's 
governors, also by teleconference, and discuss with them how to 
rapidly improve our capacity for responding to bioterrorism. 
And next week, I will be doing the same with our country's 
mayors on the same subject.
    Continuing to improve and better coordinate the efforts at 
the local, State, and Federal levels is truly the best way to 
ensure an effective response, and at the same time reassure the 
public. We are also working aggressively to strengthen our 
readiness and response, but we need your help, Senator and all 
Members of this Committee, as well as the entire Congress.
    Bioterrorism has not, and I want to underscore this, has 
not been a high fiscal priority in the past and we need to move 
aggressively. That is why the President is today requesting an 
additional $1.5 billion to combat terrorism, to strengthen our 
ability to prevent and respond to a bioterrorism attack. 
President Bush's request will result in more than a six-fold 
increase above the $300 million Congress appropriated in fiscal 
year 2001. President Bush has from his first days in office 
made a serious commitment to addressing the issue of 
bioterrorism, and the President's fiscal year 2002 budget 
provides HHS anti-bioterrorism initiative with $345 million, 
which is also a 20 percent increase over the previous year.
    But with the events of September 11--none of us could have 
expected that--the President has called for an additional $1.5 
billion in Federal funding for those areas most critical to our 
ability to respond to bioterrorist threats. Let me outline the 
areas in which we are focusing our efforts.
    First, pharmaceuticals. We must accelerate the production 
of vaccines and antibiotics and we must invest in essential 
programs to ensure the speedy and the orderly distribution of 
antibiotics and other supplies in the event of a biological 
event. The President's proposal includes $1.2 million for this 
activity and will be used to prepare for all contingencies. 
These funds include $643 million to expand the National 
Pharmaceutical Stockpile and $509 million to speed the 
development and the purchase of smallpox vaccine. The 
President's request also includes funding to make sure the 
stockpile is ready, for the immediate shipment and the 
deployment and use by trained professionals.
    We are going to add four more push packs. Each one of the 
push packs are now located in eight strategic locations. Each 
of those consists of 50 tons of pharmaceutical supply. We want 
to increase that by four, and that will add an additional 200 
tons of medical supplies. These push packs include no less than 
84 separate types of supplies. They include things like 
antibiotics, include Cipro, needles and IVs, a tablet counting 
machine, oxygen mask, and so on.
    Second, let me emphasize again that much of this new money 
is also needed to build on our partnership with local and State 
governments, an issue that all of you on this Committee are 
passionate about and I thank you from the bottom of my heart 
for that passion.
    For example, the President is calling for $88 million to 
expand HHS's capacity to respond to bioterrorist incidents, 
including $20 million for CDC's rapid response and advanced 
technology and specialty labs, which they badly need, which 
provide quick identification of suspected agents as well as 
technical assistance to State labs.
    Also included in this amount is $20 million to support 
additional expert epidemiologists and these teams that can be 
sent to States and cities to help them respond quickly to 
infectious diseases. One of those teams was in the Capitol last 
night until 2 o'clock this morning working with the Majority 
Leader, along with Scott Lillibridge, and I was in contact with 
them up until midnight, when I left contact.
    And then respond quickly to infectious diseases, the 
outbreaks and other public health risks. I believe every State 
should have at least one federally funded epidemiologist who 
has graduated from the Epidemic Intelligence Special Service 
training program at CDC.
    The President is also asking for $50 million to strengthen 
also the Metropolitan Medical Response System, which will be 
able to increase the number of large cities that are able to 
fully develop their MMRS units. These are the medical and 
public safety response units. We have 97 right now. We would 
like to go to 122 with the extra money. It is imperative that 
we work closely with cities to ensure that their MMRS units 
have the proper equipment and, yes, proper training.
    We are also providing $50 million to assist hospitals and 
emergency departments in preparing for and responding to 
incidents requiring mass immunization and treatment, and we are 
providing $10 million to augment State and local preparedness 
by providing training to State health departments on 
bioterrorism and emergency response.
    The President is also requesting $40 million to support 
early detection surveillance to identify potential bioterrorism 
agents, which include web-based disease notification to the 
health community nationwide, which is so important in order to 
hook up with the local communities, local health departments, 
and the State health departments. This effort will also provide 
for the expansion of a very successful health alert network. We 
have 37 States hooked up right now. We want to get to all 50, 
and then we would like to hook up to the local health 
departments. It is going to help provide early detection of 
disease to 75 percent of the Nation's 3,000 counties.
    We are providing $15 million to support increased capacity 
in no less than 78 laboratories in 45 States. This funding will 
enhance our ability to identify and detect all critical 
biological agents, and we are implementing a new hospital 
preparedness effort to ensure that our health facilities have 
the equipment and training they need in order to respond to 
mass casualty incidents.
    Third, in addition to purchasing pharmaceuticals, we are 
committed to the development and the approval of new vaccines 
and new therapies. For example, the Food and Drug 
Administration is working closely with the manufacturer of 
ciprofloxacin, commonly known by the brand name Cipro, to make 
certain that firm, Bayer, can safely and rapidly increase its 
production of that drug, which is used in the treatment of 
anthrax victims. I was in contact with Bayer yesterday and they 
have announced, as of yesterday, they will be able to produce 
200 million tablets within the next 90 days.
    Let me also announce that the FDA is officially approving 
today the use of two additional generic antibiotics for the 
treatment of anthrax, doxycycline, and penicillin. Because 
these drugs are available in generic forms and produced by 
several manufacturers, they will be relatively inexpensive and 
readily available. The FDA's approval will include instructions 
on what dose to use and how long to treat the inhalation form 
of anthrax, and I would like to quickly point out that we have 
found that of all the anthrax that we have received so far and 
been tested, all of them are sensitive not only to Cipro, but 
also to doxycycline and also to penicillin. So let me again 
stress that there is no need for anyone to stockpile any drugs. 
We have the drugs that we need and they will be available 
whenever and wherever they are needed.
    The fourth, food safety. The President is also requesting 
$62 million to enhance the frequency and the quality of 
imported food, to order inspections, and be able to modernize 
the import data system to enable us to detect tainted food. 
This funding will also provide for 410 new FDA inspectors to 
help ensure that our food is better protected.
    In addition, the administration will be sending to Congress 
legislation to strengthen our ability to protect the Nation's 
food supply. This measure will require prior notice of imported 
food shipments, enhancing our ability to inspect food, allowing 
for detention of foods suspected of being tainted, and 
providing the flexibility for the FDA to approve drugs and 
other treatments for dealing with illnesses resulting from 
pathogens on our food.
    Much of the initial burden for providing the effective 
medical response to a terrorist attack, of course, rests with 
local governments. If the disease outbreak reaches any 
significant magnitude, however, local resources will be 
stretched, and very quickly, and the Federal Government will be 
required to provide protective and responsive measures for the 
affected populations. In the testimony I have submitted to the 
Committee, Mr. Chairman, I have outlined the specifics of how 
the various departments and the agencies are working together 
in a coordinated effort.
    So, Mr. Chairman, let me again emphasize that the 
administration is taking aggressive steps to make sure that our 
country is well protected from bioterrorism, and let me once 
again tell the American people the following: One, anthrax is 
not contagious.
    Two, the government at all levels is responding to 
bioterrorist threats and responding well.
    Third, our postal system is being monitored very carefully. 
People should exercise caution, and if something seems 
suspicious, use good judgment. But there is no reason not to 
send and receive letters and packages.
    Fourth, be vigilant and cautious, but do not let the 
terrorists win by frightening us unduly. Do not let them scare 
you into not living your life. That would help our enemies 
achieve what they are trying to do, and that is terrorize 
American citizens.
    Contemplating bioterrorism is very unpleasant, but it is 
imperative, and under the leadership of this Committee, this 
Congress, and President Bush, we are taking all the steps 
necessary to keep America safe in an era when biological and 
chemical attacks are as possible as they are unthinkable.
    I want to thank you, Mr. Chairman, both Mr. Chairmen and 
the Ranking Minority Member and all Members on this Committee 
for giving me this opportunity to talk about this subject. Now 
I will be more than happy to answer any questions you have.
    Chairman Lieberman. Thank you very much, Secretary 
Thompson, for a reassuring and very helpful statement.
    I wonder if I might suggest to my colleagues that Senator 
Thompson and I and Senator Akaka have 5 minutes on a first 
round of questioning, since we got to give an opening 
statement, and we will give every other Member of the 
Committee, shall I say at least 8 minutes, and we will go in 
order of arrival, which would mean, just for the information of 
Members, after Senator Akaka, it will be Senator Domenici, then 
Senator Levin, Senator Collins, Senator Dayton, Senator 
Carnahan, and then Senator Durbin.
    Mr. Secretary, just to bring it home, and it really is 
right here, I wonder whether you or Dr. Lillibridge have any 
information you want to convey to the Committee about what has 
now been determined as to the infection caused by the anthrax 
sent to Senator Daschle's office.
    Mr. Thompson. I would be more than happy to, Senator 
Lieberman. I believe it has already been publicized--we are 
waiting for Senator Daschle to make that notice first, but 
there are over 20 individuals on the staff that have the 
anthrax within their system, that tested preliminarily 
positive. We have provided at the present time 1,200 bottles of 
Cipro. One thousand individuals will be tested. We are going to 
have six nurses on hand, two pharmacists, and a doctor, and 750 
tests are going to be conducted by NIH and all this is being 
done as we speak right now, Mr. Chairman.
    Chairman Lieberman. Is it correct to infer that the reason 
why such a large number in Senator Daschle's office were 
infected, larger than in the other instances where anthrax has 
been mailed to an office, was because of what we have learned 
was the pure and more refined state of the anthrax that was 
sent to the Daschle office?
    Mr. Thompson. You certainly can draw that conclusion, but 
the tests have not been finalized, so I do not want to 
speculate, but there is no question that this is a very serious 
attempt at anthrax poisoning.
    Chairman Lieberman. And all of the individuals, I presume, 
were in the Daschle office or in the vicinity of----
    Mr. Thompson. I am not sure about that.
    Chairman Lieberman. Doctor, do you want to add anything 
here?
    Dr. Lillibridge. Sir, let me add two things. One is that I 
would like to differentiate between being exposed and being 
infected.
    Chairman Lieberman. OK.
    Dr. Lillibridge. We are telling the American people that 
these people were exposed, but they are not currently infected. 
They are, indeed, healthy and on medicine to prevent illness or 
prevent from becoming infected.
    Chairman Lieberman. Say a little more about the distinction 
so we understand it.
    Dr. Lillibridge. When we say exposed, that means they were 
in an area perhaps where there was dust or a powder or in the 
vicinity where a letter was opened up. They may have recovered 
spores from their clothing or from their nasal passages. But 
that is a far cry and that is very different from having a 
bacteria set up housekeeping and creating infection and illness 
in the human. They are not to that stage, and indeed, with 
medical prophylaxis and a proper environmental follow-up, we do 
not expect them to move to that stage.
    Chairman Lieberman. That is a very important distinction.
    Mr. Thompson. Of all the anthrax so far, we have only had 
four that have actually become infected.
    Chairman Lieberman. Infected.
    Mr. Thompson. Two in Florida and two in New York.
    Chairman Lieberman. That is a very important distinction. 
So at this point, as far as the two of you know, none of the 
individuals in Senator Daschle's office----
    Mr. Thompson. That is correct.
    Chairman Lieberman [continuing]. Are actually infected?
    Mr. Thompson. Absolutely. And it is too early and they are 
on the necessary antibiotics and they should not become 
infected.
    Chairman Lieberman. As we learned yesterday in the briefing 
that Senators received, it takes a pretty significant number of 
anthrax spores to actually become infected.
    Mr. Thompson. Different amounts between the three different 
types of anthrax. Cutaneous infection results from a break in 
the skin. Ingestion--you have different tainted food from 
animals that could get into your system, causing 
gastrointestinal problems, which would take less than 
inhalation. Inhalation anthrax, they have figured, has to have 
10,000 spores enter your system in order for one to become 
infected, and that is a lot.
    Chairman Lieberman. It is very important for people to hear 
that, particularly since the number of those exposed is larger 
than in any other case that we have had thus far.
    Mr. Thompson. That is correct.
    Chairman Lieberman. I wonder if either of you, and I just 
want to use this as a moment to try to help convey information 
that will be helpful to us and perhaps the public.
    Mr. Thompson. That is very good and I appreciate this.
    Chairman Lieberman. No, I thank you. I wonder if you have 
anything to say about what we can determine about the fact that 
this anthrax in Senator Daschle's office was presumably more 
pure and refined than that sent to the other offices. Are there 
any conclusions we can draw about who was sending it, what was 
done?
    Mr. Thompson. That is being completely investigated by the 
FBI, Senator. We have no knowledge of that at this point in 
time. We are hopeful to be able to have the FBI make some 
arrests and some breakthroughs, but at this point in time, it 
is purely speculation. And the research in the labs, there is 
research being done at Fort Detrick and also research being 
done at our labs at CDC in Atlanta and all that research and 
analysis will be coming forthwith to you and to other members 
as soon as we get it.
    Chairman Lieberman. A final question on my round for you 
about the facts here, and about this, I think there is some 
uncertainty, too. How difficult is it to obtain anthrax? There 
have been times I have heard broadcasts where people have said 
there are only three countries in the world that have it, 
perhaps certainly the former Soviet Union, the United States 
has some, I gather, in laboratories, and there have been 
allegations of other countries, including Iraq, possibly having 
it. But then I have also heard at different times that it 
exists in labs around this country in some numbers and that, 
therefore, that is another place that somebody sending these 
packages could have obtained it. So I wonder if you can help us 
understand how the people doing this might have obtained the 
anthrax.
    Mr. Thompson. Well, there is a lot of different anthrax. A 
lot of it occurs naturally in the blood of animals that, once 
the animal dies, gets emitted into the air. It is emitted in 
culture. There are laboratories across America that have had 
anthrax and have done research and experiments on it. It could 
be done. There are other countries that have used anthrax and 
tried to use it as a weapon. They are the ones that have 
manufactured and milled it into a weapons grade and that, of 
course, is the most dangerous part.
    But this anthrax that we have right now, we are still doing 
research on it. We do not know the exact strains or where it 
comes from.
    Chairman Lieberman. Is it fair to say that it is difficult 
to obtain the kinds of anthrax that has been sent to people 
around the country now in the last couple of weeks?
    Mr. Thompson. It is more difficult for it to be able to be 
used as a poison in a letter----
    Chairman Lieberman. Right.
    Mr. Thompson [continuing]. Because it clumps together.
    Chairman Lieberman. Right.
    Mr. Thompson. And to be able to allow it to go up into the 
air requires some degree of scientific ability.
    Chairman Lieberman. So that is what, I presume, was 
noteworthy about what was sent to Senator Daschle, because the 
analysis of it suggested that it had been refined to a greater 
extent than is normally found.
    Dr. Lillibridge. Mr. Chairman, let me make a few comments. 
You asked, where might this organism come from? Where might you 
recover anthrax bacteria? It is in the soil. It is a disease of 
the animal population. Many labs around the world investigate 
anthrax as it relates to the safety of herds and other kinds of 
animal veterinary activities.
    As for the sample in question, there are a number of tests 
that are ongoing that will look at the size and the purity and 
the sensitivity. I can tell you at this time, we are aware that 
the sensitivity of this organism that was released in Senator 
Daschle's office is sensitive to ciprofloxacin, doxycycline, 
and penicillin--the common drugs that would be used to treat 
any kind of outbreak of this nature. That is, in itself, 
reassuring.
    The issue of whether it is weaponized or where it came from 
may take quite a bit of strain analysis and sophisticated 
testing. That is ongoing with the Federal Bureau of 
Investigation at the lead. It is our impression from a public 
health safety standpoint that we have enough information in 
terms of its sensitivity and its purity and isolation to make 
sure this really is anthrax organism to guide our investigation 
both environmentally and make public health recommendations. As 
soon as that information becomes known, it will be made public 
as best it can.
    Chairman Lieberman. Fine. Just a final point of 
clarification. I assume it is some distance from the naturally 
occurring anthrax, that is, anthrax that occurs naturally in 
the soil or in animals, from that to the kind of powder that 
was sent to Senator Daschle's office.
    Dr. Lillibridge. Let me just use the short answer for this. 
I think it shows there has been some attempt to collect it, 
perhaps refine it and make it more concentrated. That seems to 
be certain.
    Chairman Lieberman. OK. Thanks very much to both of you.
    Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman. Your last 
statement was with regard to that found in Senator Daschle's 
office?
    Dr. Lillibridge. Yes, sir.
    Senator Thompson. There was apparently some attempt to 
refine it?
    Dr. Lillibridge. Well, when you have a collection of 
anthrax spores put into a package, that takes some effort to do 
that. This organism is in the soil, but getting it into spore 
form requires some degree of effort.
    Senator Thompson. The GAO report of last month that someone 
referred to said that processing biological agents into the 
right particle size and delivering them effectively require 
expertise in a wide range of scientific disciplines. Would you 
agree with that, Doctor?
    Dr. Lillibridge. Yes, sir.
    Senator Thompson. So if, in fact, we do find that this was 
more highly refined in terms of particle size, weaponized, I 
guess is a good way of putting it, then that would indicate 
someone had a wide range of scientific disciplines?
    Dr. Lillibridge. Let me just extrapolate the process as you 
go through this. As the investigation unfolds and moves into 
either national security or law enforcement arenas, they will 
begin looking at the strains, the match-up, what effort went 
into manufacturing it, and see if they can pinpoint a source, 
either a geographic location or a specific stockpile or a 
specific strain that inhabits a certain part of the world.
    Senator Thompson. This may be a little bit beyond----
    Mr. Thompson. Senator Thompson, it has to be a certain size 
in order for it to get into the body. If it is smaller than one 
micron or larger than ten microns, it is not able to be inhaled 
properly.
    Senator Thompson. This is all a little premature, I 
suppose, but indulge me with one more question. This may be 
beyond your purview. I have read that in order to produce 
especially large quantities of this powder form that would be 
weapons grade, if you want to call it that, that it would 
require substantial infrastructure. I have seen millions of 
dollars spent to have that kind of production capability and 
facilities. As a general proposition----
    Mr. Thompson. That is absolutely----
    Senator Thompson. Is that a correct assumption?
    Mr. Thompson. That is our understanding, Senator.
    Senator Thompson. With regard to the----
    Mr. Thompson. To have a weapons grade, it could possibly 
have a country behind it.
    Senator Thompson. A country would probably be behind the 
weapons grade?
    Mr. Thompson. But we want to make sure that none of this is 
a weapons grade.
    Senator Thompson. You want to make sure that none of it--we 
do not know yet with regard to this?
    Mr. Thompson. Of the past one, it is still being tested.
    Senator Thompson. Right. With regard to these large 
stockpiles that we have developed and are in the process of 
developing, is this going to have to be constantly replenished? 
Are there expiration dates on all these drugs, as we commonly 
understand them, and what budgetary impact will that have in 
these huge numbers we are talking about?
    Mr. Thompson. We have two different systems, Senator. In 
the push packages, some of those will have to be replaced. But 
we also have a vendor marketing inventory and part of the 
agreement with the vendor's marketers is that their 
responsibility is to restore items that have used up their 
shelf life with new stuff and that is built right into the 
contract, so it is an ongoing thing. So there are some of the 
more durable things that are in the push package, but we also 
have a different system, which is called VMI, and that is 
brought up currently on a monthly basis and that is being 
conducted and supervised by CDC.
    Senator Thompson. I see.
    Mr. Thompson. And that is built right into our contract.
    Senator Thompson. Mr. Secretary, there has been a lot of 
discussion, as you know, about Governor Ridge's position, the 
authority that he has or should have. With regard to all of 
these things that you and your Department are doing, how do you 
see that fitting within his operation? How do you see your 
relationship and your duties and responsibilities and all these 
things that you are doing intersecting with what you understand 
his responsibilities are going to be? Is that too broad a 
question to answer?
    Mr. Thompson. No, it is not.
    Senator Thompson. Have you given some thought to it?
    Mr. Thompson. It is a very valid question. I will give you 
an example. As of 4 o'clock yesterday afternoon, we had a 
meeting, various departments with Governor Ridge and we worked 
out some difficulties. He was the coordinator and we threw out 
questions and problems and we just had a roundtable discussion 
and then he would delegate, ``Tommy, you take care of this one, 
and Madam Secretary, you take care of that problem, sir, you 
are responsible for this,'' and so on.
    So his job is to coordinate and make sure that when we have 
problems in the public health arena, we can go to somebody like 
Tom Ridge and say, ``This is a problem. Can you assist us with 
the FBI or with the CIA or with the Department of Defense and 
help us along?'' It has been working out, I think, very 
effectively so far.
    Senator Thompson. How do you foresee budget determinations? 
Would you expect him to have input in your decisions or would 
he make certain decisions in certain areas with regard to your 
Department? How do you see that playing out? Have you gotten 
into that yet?
    Mr. Thompson. Senator, we put in this request, and I talked 
to Governor Ridge and I know that he talked to the President in 
regards to this, as I did, and we all talked to OMB. I think 
somebody from the President's Office, including Governor Ridge 
and myself, talked to OMB, and as a result of that, the request 
today of about $1.6 billion is in front of you.
    Senator Thompson. Thank you. My time is expired. Thank you, 
Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Thompson. Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Mr. 
Secretary, I am pleased to hear the President's request for $40 
million to support the early detection surveillance to identify 
potential bioterrorism agents. This matches the authorization 
in my bill.
    Mr. Thompson. And I thank you for that, Senator.
    Senator Akaka. I look forward to working with you to ensure 
these funds are made available.
    Senator Domenici. Mr. Chairman, could I ask the Senator to 
yield for 30 seconds?
    Senator Akaka. Certainly.
    Chairman Lieberman. Go right ahead, Senator Domenici.
    Senator Domenici. Mr. Chairman, we have a complication in 
that there is a meeting with reference to a collateral issue at 
10:30.
    Chairman Lieberman. Correct.
    Senator Domenici. I will come back, and if you are still 
here, I would appreciate the opportunity to inquire. I just 
wanted you, Mr. Secretary, to understand why I will not be 
staying here and thank you for what you have been doing. You 
are doing a great job.
    Mr. Thompson. Thank you, Pete.
    Chairman Lieberman. Thanks, Senator Domenici. We will be 
here and await your return.
    Senator Akaka. Thank you. Mr. Secretary, I believe that the 
animal health community requires formal coordination with the 
HHS and CDC and I am delighted to know you are both on the same 
floor and there is much coordination. Currently, their 
interaction is on a case-by-case or a need basis. Formal and 
regular contact will ensure that animal health and agriculture 
issues are addressed by HHS and FEMA disaster preparedness.
    Federal efforts should also take advantage of the expertise 
veterinarians have to offer, such as familiarity with anthrax. 
In fact, in a National Public Radio report yesterday morning, 
two out of the three anthrax specialists interviewed were 
animal disease specialists. Veterinarians could also help in 
detecting unusual biological events because many emerging 
diseases appear in animals long before humans. Additionally, 
animal diagnostic labs have the capacity to identify and 
confirm the diseases.
    The bill I am introducing today establishes a senior-level 
official within HHS who has formal responsibility for regular 
contact with the animal health community. Would you please 
comment on current coordination efforts between HHS and the 
animal health community and on my proposal.
    Mr. Thompson. First off, let me just say I like the 
proposal and I hope that it gets prompt action in the U.S. 
Senate.
    Second, we are trying to coordinate very closely with the 
Department of Agriculture on food safety as well as animal 
safety wherever we possibly can.
    The third thing, your analysis that veterinarians may have 
a tremendous amount of expertise in the disease of anthrax is 
absolutely correct and we have, of course, several teams of 
veterinarians that are involved with our Public Health System. 
In fact, I think we sent four veterinarian teams to the City of 
New York to take care of the search dogs and they were there 
for several weeks taking care of the dogs while they were still 
trying to find people alive in the rubble and our veterinarians 
were there to take care of them.
    Five, food safety. I know it is a big concern of yours as 
well as my friend Senator Durbin's, and it is a real priority 
for me. I know it is for the Secretary of Agriculture, and I 
think we have to do a much better job than we have in the past 
in this arena and I would be more than happy to discuss that 
with you at any time.
    Senator Akaka. In the event of a biological terrorism 
event, clinical laboratories are likely to be overwhelmed with 
samples.
    Mr. Thompson. We are finding that right now, Senator, and 
we have so many--we have thousands--I do not know how many, but 
we have a lot of false starts in regards to the anthrax scare 
and we are trying to deal with them through the Post Office 
Department, through the FBI, and, of course, a lot of the 
burden rests upon our laboratories that we have to take care 
of.
    Senator Akaka. I commend you on identifying that problem 
and also again urge you, as you have been doing, to calm the 
feelings of people by giving them the proper information on 
these samples and medicines, as well.
    I believe that many areas should begin developing regional 
plans to assist neighboring cities or States in handling surge 
diagnostic lab demands.
    Mr. Thompson. Yes.
    Senator Akaka. However, I am concerned that, 
geographically, remote areas like Hawaii will be at risk, and 
also our territories that are non-contiguous. We cannot forget 
that the grounding of all air traffic during the terrorist 
attacks on September 11 effectively isolated both Hawaii and 
Alaska, and our territories, for several days. In fact, some 
U.S. territories beyond Hawaii are having trouble getting their 
medical samples analyzed because they must be flown to Honolulu 
first.
    My question is, does Hawaii have the laboratory capacity to 
absorb a dramatically increased sample load in the event of a 
biological crisis and what plans are in place to ensure that 
remote areas have capacity to detect and identify human 
diseases and plant and animal pathogens?
    Mr. Thompson. Senator, I am not expert enough to talk about 
a particular lab, but let me tell you the system, how we have 
got it set up and how we are able to respond. We have connected 
with Hawaii, with Alaska, and with our labs in CDC in Atlanta 
and they are hooked up to the lab and we have put out the 
notice and we are putting out information on a regular basis to 
all the State health departments asking them to get involved 
and if they see something suspicious, they are to get us the 
tests, the tissues, and the blood samples as soon as possible 
so we can make a confirmation of what the preliminary lab may 
find in Hawaii or in Wisconsin or Alaska or Michigan, wherever 
the case may be.
    And then if we find that there is any type of biological 
agent, we are able within hours to fly CDC teams to that 
particular area to help put together a State or local plan and 
to assist them. We have 7,000 medical professionals divided 
into 90 teams throughout the United States, one of which is in 
Hawaii, and they are able to respond very quickly. We have one 
in D.C. that is able to respond to the Capitol within 90 
minutes. These are individuals that are experts in biological, 
chemical, and radiological kinds of attacks.
    So we are able to respond and we also have medicines that 
we can distribute very quickly to any locale in the United 
States, including Hawaii.
    Senator Akaka. Thank you very much.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, I want to begin my comments by thanking you 
for your tremendous leadership and strength during this very 
difficult time. There is no one in whom I have more confidence 
than I do you to guide our Nation and to manage our efforts to 
deal with bioterrorism.
    Mr. Thompson. Thank you. Thank you very much, Senator.
    Senator Collins. In the past, an attack with a biological 
agent like smallpox or anthrax seemed highly unlikely. Today, 
such attacks not only seem frighteningly possible, but rather 
the question has changed from ``if'' to ``when and where.''
    Mr. Thompson. Right.
    Senator Collins. Intellectually, we may understand that 
more people die of the flu than of anthrax, but that is of 
little comfort because people do not try to deliberately kill 
us by exposing us to the flu. It is both disturbing and 
unsettling to all of us that we were told yesterday that the 
staffer who opened the mail in Senator Daschle's office and 
discovered the anthrax-tainted letter did exactly the right 
things, that she took exactly the right steps, and yet still 
more than 20 members of his staff have tested positive for 
exposure to anthrax. I think that is very unsettling to us all.
    In most parts of the country, the first responders are not 
likely to be officials from the CDC or highly-trained 
epidemiologists who have the training to recognize anthrax and 
to trace where the infection has come from. They are much more 
likely to be the family doctor or the emergency room nurse or 
the local police officer. I am very pleased to hear of your 
efforts to educate our health care providers and those on the 
front lines.
    Last week, I attended a hearing at which Dr. Henderson, 
whom you appointed to head your advisory committee, testified 
along with several other public health experts about the 
Florida response to the first case of anthrax, and to a person, 
they testified that they felt in many ways it was fortuitous 
that the physician had recognized that this might be a case of 
anthrax, that there was a lab nearby that had the capability of 
identifying anthrax, and that if this first case had happened 
in many other parts of the country, it might not have been 
detected as anthrax. That is of concern to me and suggests we 
need to do more.
    I know one of your goals is to make sure that every State 
has a federally-trained epidemiologist. Could you tell us how 
many States now lack a federally-trained epidemiologist?
    Mr. Thompson. I think there are 17 that--it is either 13 or 
17, I am not sure. But first, let me thank you for your 
comments, and second, let me quickly point out that I think 
that would be a giant step forward. Luckily, the individual 
doctor in Florida had had training from CDC, as I understand 
it, and knew exactly what to look for.
    I think it would be a wonderful thing for this Congress to 
be able to place in every health department maybe at least one 
individual that has EIS training, like Scott Lillibridge does 
from CDC, and also the regional areas would be the same, so 
that we have that expertise out in the field. It would 
strengthen the local and State health departments and Public 
Health Systems tremendously and I thank you for your support of 
that, Senator.
    Senator Collins. I think that really is absolutely critical 
because they are the ones who are on the front lines and are 
going to have to make the right decisions before there is 
likely to be Federal involvement.
    The second issue that you brought up in your testimony was 
your plan to have additional push packs, and I understand that 
these are the collections of medical supplies. I commend you 
for pushing for additional packages. I am concerned, however, 
about how we know what to put in these push packs because today 
it may be anthrax. Tomorrow it may be smallpox. The next day, 
it may be another kind of chemical rather than biological agent 
that is being used to attack our citizens. How do you decide 
what kinds of pharmaceuticals or supplies to put into these 
essential push packs that can be deployed on very short notice?
    Mr. Thompson. Let me just quickly point out that we have a 
panel of experts that explore that. We have two systems. We 
have the push packs, in which there are eight strategically 
located around the United States, 50 tons in each one. In order 
to move them, it takes nine semi-trucks or a C-130 to move 
them, and our plan is to move them within 12 hours. In the case 
of New York, we were up there within 7 hours.
    Then we have a second ancillary system called the VMI 
system which is in the process of purchasing. We purchase 
pharmaceuticals but we do not take delivery of them. We have 
individuals that supervise them and keep them current, and that 
is the VMI system.
    So you have two different systems and you have a panel of 
experts that analyze on a regular basis what should be in 
either the VMI, and those are the ones that would have a 
shorter shelf life, and then the ones in the push packages.
    And the third thing is that we are continuing upgrading 
that. As far as smallpox vaccine, that is a separate thing. 
That is the third thing. That is being under supervision of 
Wyeth and we have 15.4 million doses of vaccine. Right now, we 
are looking at the smallpox and seeing whether or not we could 
cut that 5-1 so that we could expand from 15.4 to 77 million 
doses of vaccine for smallpox, and NIH is doing that analysis.
    Right now, the preliminary analysis is that by cutting it 
down from--we have tests going from 1-1, 5-1, 10-1, and 100-1, 
and we have found that the effective rate is around 95 percent 
on 5-1, but that is preliminarily. At 10-1 dilution, it is 70 
percent effective, and 100-1 is 20 percent effective. So we 
strongly think from the preliminary analysis with our doctors 
at NIH and with the consultation of CDC that we could have that 
reduced from 5-1 and still be very effective and increase the 
number of doses for smallpox vaccine from 15.4 to 77 million 
doses.
    Senator Collins. Thank you. I see that my time is running 
short. I just want to touch quickly on two other issues.
    The first is the vulnerability of our food supply. I held 
hearings a couple of years ago that showed that our system for 
inspecting imported food was woefully inadequate, that less 
than 1 percent of shipments of imported food were inspected, 
but more troubling, that it was very easy for unscrupulous 
shippers to circumvent the inspection process and to actually 
reship tainted food that had been caught through the inspection 
system. So I want to share with you the hearings that we held 
and our findings and recommendations, some of which were 
enacted but many of which were not because of lack of 
resources, and I look forward to providing you with that 
information.
    Mr. Thompson. I appreciate that very much, Senator, and 
anything you can help with in regards to improving the food 
safety, I would appreciate it very much. Seventy-seven million 
Americans last year had food poisoning, one out of four. Three 
hundred and thirty-two thousand ended up in the hospital and 
5,000 died because of food poisoning. So when you look at that 
and compare that to only four individuals that have actually 
been infected from anthrax, you can see that food safety and 
food pathogens is a much bigger problem and I thank you.
    Senator I wanted to correct something that I guess--
somebody sent me a note. I did not in any way imply that there 
were countries behind this attack on Senator Daschle and that 
it is weapons grade. The tests are still being done. I just 
said that it is very potent.
    Chairman Lieberman. Thanks, Mr. Secretary. I thought you 
made that clear----
    Mr. Thompson. I thought I did, too, but I wanted to----
    Chairman Lieberman [continuing]. But I appreciate the extra 
clarification.
    Mr. Thompson. Thank you.
    Senator Collins. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Collins, for some 
excellent questions. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you. First, let me thank you, Mr. 
Secretary, for your extraordinarily solid, thoughtful 
leadership. You and your agency have made a major contribution 
to the security of this Nation and its well-being and, 
hopefully, its calm consideration of the threat.
    Actually, this last clarification of yours is something I 
was going to ask you about and that has to do with the 
difference between concentrated anthrax and weapons grade 
anthrax, if you can tell us that. You indicated, I believe, 
that it would take a state to produce the weaponized variety 
because there are millions of dollars that might be involved in 
the infrastructure to produce it. Would it also be safe to say, 
however, that a well-financed terrorist organization, if it had 
enough millions of dollars to produce the infrastructure, could 
produce weapons grade anthrax?
    Mr. Thompson. I think we are all learning and I do not know 
if anybody knows for sure, but I think you can make that 
supposition quite easily. Maybe, Scott, you would like to----
    Senator Levin. Maybe one word on the difference between 
concentrated and weapons grade, if you know it.
    Dr. Lillibridge. Let me make two statements on this. First 
of all, the issue for health really is not so much whether it 
is concentrated or weapons grade, if the investment has been 
made in dissemination and the process to mill it down and make 
it distribute easily.
    The distinction between concentrated and weapons grade, as 
we understand it, is that concentrated is what you do to simply 
get spores close together so you can put them in an envelope 
and mail them out. There are a number of ways technically to do 
that, depending on the investment, the time and effort, and the 
amount of risk you want to take at your local lab certainly 
would factor in.
    The issue of weaponization or weapons grade is often used 
in the literature to evoke large industrial investment in 
preparing samples for dissemination. It includes milling down 
the spores so they are easy to disseminate. It involves coating 
the spores so they stay in the air a little longer. It involves 
research into dissemination devices, different ways to move it 
to the population. We do not have any of that information on 
this particular sample at this time.
    Senator Levin. Thank you. I want to talk about smallpox for 
a minute. Our former colleague, Sam Nunn, took part in an 
exercise called ``Dark Winter,'' and I do not know if you have 
seen the video tape----
    Mr. Thompson. Yes, we have.
    Senator Levin. The major finding of that study was that the 
Nation was very unprepared for such an attack, and so I want to 
ask you about what kind of preparations, in fact, have been or 
are in the process of being made. You just discussed the dosage 
issue and that is very helpful information.
    In addition to seeing whether or not we can divide our 15 
million doses into smaller doses, can you answer or address two 
issues. One, are we also attempting to produce more, and if so, 
what is the time line for that? And second, whatever number of 
doses we have, whether it is 15 million or 75 million or 
whatever number, what is the plan prior to any attack? Are we 
going to start immunizing people before evidence of an attack, 
given the very different nature of smallpox, or what are our 
plans in that area?
    Mr. Thompson. Well, thank you very much for the question, 
Senator Levin. Let me point out first that when Dark Winter was 
being conducted, we took that experiment, that example, along 
with the GAO report, and when I appointed Scott Lillibridge, I 
said, you have got to take all of these things, find out the 
deficiencies we have and start correcting them, and that is why 
we brought Scott Lillibridge and brought in a team into the 
Secretary's office to address those inadequate situations and 
we are knocking them down as we go along.
    We have accelerated, of course, since September 11 and are 
doing a lot more, and even though the terrorist attack was 
terrible for America, one good thing that came out of it, the 
consequence of that is that we are much better prepared to deal 
with a bioterrorism attack and we are getting stronger each and 
every day.
    In regards to smallpox, I am happy to report that we are 
meeting with a lot of the pharmaceutical companies. In fact, we 
are going to be discussing smallpox with four of them very 
soon, and we have talked to them in the past. We are going to 
talk to them again about purchases. We are looking to expand 
and purchase 300 million doses of vaccine, Senator Levin. 
Acambis is the company that has a contract currently with CDC 
to produce 40 million doses. They were not going to start 
producing until 2005. They now have accelerated that to 2002.
    We have also talked to some other companies and we think 
that we will be able to purchase some smallpox vaccine and 
start manufacturing yet this year, Senator Levin, and we should 
be able to have, provided Congress goes along with the 
appropriation, the necessary dollars and be able to have the 
300 million doses by the end of next year.
    Senator Levin. Is it safe to say or is it accurate to say 
that smallpox, if it could be obtained by a terrorist, would be 
a more threatening substance than anthrax?
    Mr. Thompson. There is no question because it is infectious 
and contagious and anthrax is not.
    Senator Levin. Is it also your plan to begin inoculations 
prior to any evidence of attack?
    Mr. Thompson. That was the second question. I apologize I 
did not answer it, Senator. We do not believe at this point in 
time that inoculation is the right thing because there are some 
serious side effects to inoculation of smallpox. There will be 
some fatalities, some inflammation of the brain, some other 
maladies that will come as a result of taking a smallpox 
vaccine.
    We may sometime in the future, with consultation with 
Congress, set aside some of the 300 million doses of vaccine 
for voluntary vaccination if, in fact, Americans want to do it, 
but that decision has not been made. But we do want a stockpile 
of 300 million and that is what we are asking Congress for the 
appropriation to do.
    Senator Levin. Thank you. Having been a governor, which is 
a tremendous asset to you, I think, in your work and working 
with local and State officials as a governor now is surely 
going to give you some really important experience in your 
current work. But as a former governor, you have also had 
knowledge in terms of how you structure an Executive Branch and 
I want to follow up on some of Senator Thompson's questions 
relative to that structure. You commented a bit on it.
    There are a number of proposals in front of this Committee. 
One is to create a separate agency. One is to create an office 
in the Executive Branch of the President. I would like to ask 
what your ideas are in this area.
    Under the present system, as you have begun to work in it, 
if there are differences between agencies on who should do what 
particular function, does Governor Ridge have the power to make 
a decision? I know he can make a recommendation and I know he 
can seek to get some kind of a consensus, but in terms of 
decisionmaking, if Governor Ridge says, ``It should be done 
this way,'' and you or some other cabinet agency says, ``No, we 
think it really should be done that way.'' Does he have the 
power to decide or is it just the power to recommend to the 
President?
    Mr. Thompson. I cannot answer that, Senator Levin. I do 
like your comments about being governor. I never in my life 
thought that being governor, I was taking this job and was 
going to become an expert on embryonic stem cells and 
bioterrorism, but that has been the two examples that have 
really been foisted upon me.
    In regards to Governor Ridge, I think he has the power. I 
think the President has given him that power to make the 
decisions, beyond just making recommendations.
    Senator Levin. Beyond, you say?
    Mr. Thompson. Just making recommendations. I think just the 
fact that the President says that he is going to be the 
coordinator, I cannot imagine any cabinet officer would be dumb 
enough to challenge that.
    Chairman Lieberman. Secretary Thompson, Senator Levin, I 
apologize for intervening. I just received a message and 
request from Senator Daschle that we recess this hearing for 
now and that the two of you come with us to the joint caucus of 
Senators to be part of the briefing. I apologize to my 
colleagues who have not had a chance to ask questions. I would 
ask the patience of the witnesses on the second two panels. I 
will definitely return and we will continue the hearing at that 
time.
    But for the moment, in response to a request from the 
Majority Leader, I am recessing the hearing.
    [Recess.]
    Chairman Lieberman. This hearing of the Senate Governmental 
Affairs Committee will now reconvene.
    Secretary Thompson, thanks very much for staying here. I 
know you have got other appointments. I do not know if I would 
say we negotiated an agreement with Senator Daschle that we 
would leave Dr. Lillibridge there and you would come back and 
complete your testimony.
    Mr. Thompson. I think Senator Daschle got the better part 
of the deal over you, Senator Lieberman. [Laughter.]
    Chairman Lieberman. We are very happy and grateful that you 
have returned with us.
    Senator Durbin, you were next. Thank you.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Mr. Secretary, thank you very much for 
returning. I really appreciate it under all these 
circumstances. I want to ask about two specific areas, one, 
immunizations, and the second, food safety. Let me start with 
immunizations.
    I think what you have told us is that you are gathering 
together 300 million doses of smallpox vaccine, and I would 
like to ask some further questions about what your plans are 
for immunization. It is my understanding that, unlike anthrax, 
where exposure can be treated successfully with antibiotics, 
that exposure to smallpox is much more dangerous, much more 
likely of infection, and, therefore, you virtually have to be 
vaccinated in advance or you stand a high risk of being 
infected with smallpox. So could you tell me what your vision 
is in terms of this smallpox vaccine and how it will be used?
    Mr. Thompson. Thank you. We are not going to gather. It is 
going to be produced and we are in the process right now of 
negotiating with the companies. There is one from Illinois, by 
the way, that is involved in the negotiations. But there are 
four companies that would like to get in the business of 
producing the smallpox vaccine.
    Two, we have accelerated the production from 2005 to 2002 
and I can announce today that we are going to be able to 
accelerate even further and we should be able to start 
producing smallpox vaccine as early as this year, sometime in 
November and December, and we will be able to produce 300 
million doses of vaccine for smallpox within 12 months. So by 
the end of next year, we will have 300 million doses of vaccine 
within our inventory to be able to be used if, in fact, 
smallpox ever turns up.
    Three, the shot, vaccine, if you get it within 2 to 5 days, 
it is still effective even after you have been exposed to 
smallpox, but the earlier you can get the vaccination, the 
better off you are.
    Four, what we would do if a smallpox outbreak did occur, we 
would go in and would quarantine the area. Then we would give 
the vaccination to the first responders and the medical 
personnel first, and then we would make a concentric circle and 
go around and vaccinate all the individuals in that concentric 
circle.
    Senator Durbin. But this will not be like my first memory 
of public health when I was a grade school kid and learned the 
name Jonas Salk and we had a national effort to immunize 
children across America. Your idea is not to move forward with 
immunization unless and until there is evidence of outbreak?
    Mr. Thompson. That is correct at this point in time. Now, 
there may be a decision after we have it in stock that the 
Congress and the Public Health System and the President will 
decide that maybe we should make some of the 300 million doses 
available for voluntary vaccination, but I do not believe that 
you will see mandatory vaccination because of the side effects 
of vaccination for smallpox. There will be some fatalities, not 
many, but probably one out of every million doses, there will 
be a fatality is what the experts predict. There will be some 
inflammation of the brain in some cases, a few more than 
fatalities. So there are some adverse side effects.
    So mandatory vaccination, I do not think will take place 
and it is not recommended by the specialists that I have talked 
to. Dr. D.A. Henderson, who is going to be my science advisor, 
is really the father of the eradication of smallpox and he does 
not advise vaccination at this point in time.
    Senator Durbin. Three hundred million doses will treat how 
many people?
    Mr. Thompson. Three hundred million.
    Senator Durbin. So it is one immunization that is 
necessary?
    Mr. Thompson. One, but we have 15.4 million doses right now 
of the old vaccine and tests are being conducted on that right 
now in regards to diluting that 1-1, 5-1, and 10-1, and the 
preliminary analysis is 5-1, which would give us 77 million 
right now. If a smallpox epidemic occurred, we would have 77 
million because the experts feel, even though the analysis has 
not been completed, that it would be strong enough to protect 
95 percent of the American public.
    Senator Durbin. I would like to make one general 
observation about immunization. Since I got into the subject a 
few years ago and studied it, I was surprised to learn how many 
children are not immunized, do not receive the basic 
immunizations that we consider important for public health, and 
I was also surprised to learn that 3.6 million children 
currently that have health insurance are not covered for 
immunizations, that health insurance does not cover 
immunizations for over three million children in our country. I 
hope that we can work together on that to extend that umbrella 
so that kids in Chicago and Milwaukee and all over can get the 
basic----
    Mr. Thompson. Senator Durbin, you are absolutely correct. 
Preventative health, that is No. 1. Vaccination is the best way 
to prevent some disastrous disease and it saves money for the 
insurance company.
    Senator Durbin. Anthrax vaccine, is that being considered, 
as well?
    Mr. Thompson. There is one company that produces anthrax 
vaccine. It is called Bioport. It is in Michigan. They are 
closed down right now for some problems and they are remodeling 
and reconfiguring their factory to produce anthrax vaccine. 
They have just applied for us to go in and to inspect it. We 
got that application as of last Friday. They are going to 
complete their renovations within the next 2 weeks. We will 
then go in and make the inspection and if the inspection meets 
FDA approval, which we think that it will, hope that it does, 
they should be able to be in production by November 15.
    They have an exclusive contract with the Department of 
Defense. The Department of Defense purchases all the anthrax 
vaccine that they have. They have approximately 5.2 million 
doses of anthrax vaccine in inventory right now. Of that, about 
3.3 million of it could be approved as an IND, a new drug, 
which means that you could use it if somebody would sign and 
say that it has not been completely tested and completely 
approved.
    So there is that 3.3 million. The Department of Defense has 
some anthrax vaccine in their inventory, but they, of course, I 
am sure, will be using it for the military. And the 3.3 million 
or the 5.2 million which is in inventory which has not been 
inspected by FDA will go to the Department of Defense.
    Senator Durbin. First, let me commend you, because in your 
opening statement, you have come to an issue which you have now 
talked about several times on food safety. I believe there is a 
need here for us to focus on two or three levels. First, what 
you have suggested, take a look at the current laws. Where are 
they inadequate to meet the current need, safety and security?
    Second, find more and higher levels of cooperation between 
the 12 different agencies of government that currently are 
involved in this. I think what will evolve from that is my 
ultimate goal, a single agency. But I am willing to stay on 
board with you for the first two steps because they are 
critically important.
    Can you amplify any further your remarks about what we need 
to do to make certain that food does not become a vehicle for 
bioterrorism?
    Mr. Thompson. Well, first, let me just say, Senator Durbin, 
I thank you, because you have been a stalwart in trying to 
protect the Nation's food supply. You have been a passionate 
advocate and I applaud you for it. I am hopeful that as a 
result of these bioterrorism attacks that we have had, that we 
will address food safety in America. We have 750 inspectors at 
FDA to inspect 56,000 establishments in America. Some of those 
establishments are only being inspected 1 out of every 4 or 5 
years. Those that cause problems are inspected annually. But it 
still does not give me the sense of security that I would like 
nor you would like and we do not--we have 132 points of entry 
into America for food coming into America from other countries 
and we only have 150 inspectors, and as you can tell just by 
the sheer numbers, that is not enough.
    Agriculture, on the other hand, has reduced the number of 
ports of entry down to nine, and I think that this Congress 
should take a look at reducing the number of ports of entry, 
increasing the number of food inspectors, the laboratory 
analysis. You and I talked about this coming over, and I was on 
the border as of Monday going to a food inspection station in 
El Paso, Texas, and take out a sample and then the sample has 
got to be UPS-ed up to Kansas City where it is analyzed and 
then the analysis is sent back. To me, that is not a very 
effective way to inspect food in America.
    Senator Durbin. Thank you. Thanks, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Durbin.
    Secretary Thompson, I just want to ask you a few more 
questions and then we will thank you for being here, and this 
comes back to the focus of this Committee on organization. As 
we look at this, we see, as we mentioned before, literally 
dozens of Federal agencies that have some part to play in 
either preparing for or responding to a chemical or a 
biological attack. The Justice Department has a State 
assistance program. Federal Emergency Management has a State 
assistance program. Your Department has a State assistance 
program. There are research programs that are relevant in the 
Defense Department, the Energy Department, even the Treasury 
Department.
    In your own Department, you have got several subdivisions 
involved, Food and Drug, the Centers for Disease Control, NIH, 
Office of Emergency Planning, and again, before I commended you 
for asking Dr. Lillibridge to coordinate those programs.
    So here is the concern or the criticism that I have heard, 
which is that the question remains, who is in charge? In other 
words, you have asserted a strong coordinating role, certainly 
over the relevant agencies that come under you as Secretary of 
HHS. But is this not still ultimately a kind of stovepipe 
situation, where there may be some coordination, but there is 
not clearly one person who is in charge of preparing America 
for the possibility of a chemical or biological attack and then 
coordinating the response to it?
    Mr. Thompson. I think you are right. I do not think there 
is one person. I think there are a lot of different individuals 
involved. Our responsibility is the public health and I think 
we do that quite well. We are making it much more responsive 
than it has ever been before. By appointing one person to be 
the coordinator, Scott Lillibridge, we have also put in place a 
lot of other fine individuals, representatives from the various 
agencies on a council working with Scott Lillibridge and they 
report directly to me.
    Especially during this period of time, we are meeting every 
morning, every afternoon about updated intel that is coming in 
and our responses. We also talk about the problem areas that we 
still see and assign people to try and fix them and report back 
to us when they are fixed, or if they cannot be, why not and if 
they need more resources.
    So we have, I think, a well-coordinated operation in the 
Department of Health and Human Services, but when you look at 
the totality of it, I think that is what Governor Ridge has 
been set up to accomplish, is to bring us all together, report 
to him. And yesterday, we had a meeting in the White House, and 
that meeting went extremely well, with all the various agencies 
dealing with bioterrorism coming in to talk about problem areas 
as well as common sense solutions.
    Chairman Lieberman. I think in your answer you have just 
gone ahead and responded to my next question, which was, should 
there be one person to coordinate across the various 
departments? I take it you have answered that.
    Mr. Thompson. Yes.
    Chairman Lieberman. At this point, then, I was then going 
to ask you, who should it be, and I believe you have said that 
it should be Governor Ridge as the head of the new National 
Homeland Security Agency.
    Mr. Thompson. That is correct.
    Chairman Lieberman. We have an ongoing discussion here and 
with the administration about the powers that Governor Ridge 
should have. I am going to leave that for another day, but I 
think you may know that I feel, ultimately, he needs some kind 
of budgetary authority to make sure that everybody is working 
together. And at some point, and you and he as governors, I 
think, can appreciate this particularly where we have got a 
crisis now as urgent as the threat of chemical and biological 
attack, you have got to have somebody who can say, hey, this is 
it. This is what I decide. Do it. That is what you did as a 
governor, that is what he did as a governor, and that is what I 
think we need here, but that is another question.
    Last year, we had a very troubling, interesting, and 
educational, I suppose I would say, experience, beginning in 
Connecticut, and going around the country, with the outbreak of 
West Nile virus. My staff on the Committee here did an 
excellent investigation. I was very proud of them. It helped me 
to understand it. It took weeks for the Public Health System to 
correctly identify the disease. It had not been seen before in 
the United States. In fact, at the outset, if I remember 
correctly, CDC and other health officials misidentified the 
disease as St. Louis encephalitis.
    I am not saying this to criticize CDC. That was not an easy 
call. But I am raising it to show how difficult it can be in a 
broader case of a larger scale chemical or biological attack to 
identify the disease as it begins to appear in doctors' offices 
or hospitals all over the country.
    I wanted to ask you if you have any thoughts about what we 
might do at the Federal Government level to improve our 
ability, not just on the science, but I guess in one sense to 
share information as it may begin to pop up in individual 
offices around the country or even a separate geographic area 
before we actually have a sense that something pretty bad is 
happening?
    Mr. Thompson. I think what we need to do, Senator, and you 
raise a very valid point. Even though--I am not sure, but I 
heard the CDC finally did determine it was----
    Chairman Lieberman. They did. They absolutely did. At the 
outset, they----
    Mr. Thompson. They made a mistake.
    Chairman Lieberman. But again, very understandable because 
it had not been seen before.
    Mr. Thompson. And that is the problem, especially now with 
anthrax and the hemorrhagic viruses and so on. They are very 
complex and you do not see them every day so you do not have 
the knowledge.
    Chairman Lieberman. Sure.
    Mr. Thompson. So there are certain things you have to do. 
You have to really educate the emergency doctors and the 
emergency individuals that deal with patients so that they have 
some basic information on what to look for.
    Second, we have got to strengthen the local health 
departments.
    Third, we have got to strengthen the State health 
departments and we have got to connect them all with CDC, and 
there has to be education going from CDC down to all of these 
various agencies in order to get a uniformity of instructions 
and support throughout the system. And I also think it would be 
very valuable if individuals that have gone to CDC and have 
been educated as EIS specialists, as you know, and have them 
assigned to every State health department and the larger 
regional health departments so that they can help advise, put 
on these educational programs for the local and State health 
departments. I think it would be very beneficial to all of us.
    Chairman Lieberman. I appreciate that, and anything you 
could do to bring that about, including, and I think is 
implicit in what you are saying--I do not have a specific idea, 
but some kind of real-time information sharing so that people 
can see that similar cases are suddenly turning up in a lot of 
different doctors' offices.
    Mr. Thompson. That is why we have set up now a 24-hour 
hotline at CDC for local health people to call in during this 
period of time.
    Chairman Lieberman. Right.
    Mr. Thompson. I can assure you it is being widely used.
    Chairman Lieberman. Thank you. Senator Carnahan, welcome 
back. I believe you would like to speak and have some 
questions.
    Senator Carnahan. Yes, if it is all right, I would like to 
make an opening statement.
    Chairman Lieberman. Please.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. First of all, I would like to compliment 
the Secretary for his rapid and comprehensive response. I think 
your demeanor, your advice, all have caused the American people 
to have a lot more awareness and a lot more confidence and I 
thank you for that.
    Since September 11, the Senate has focused on responding to 
attacks on our Nation, and now that the Senate itself is under 
attack, and I applaud Senator Daschle for responding to this 
incident with calm and with resolve. But we are now taking the 
next necessary steps to protect ourselves against any future 
attacks. We must also act with speed to ensure that our Nation 
is prepared, as well. Future attacks may affect many more 
people. They may also affect livestock and the food and water 
supply.
    Unfortunately, many places in the country do not currently 
have the capability to respond as quickly and thoroughly as the 
United States Capitol, and that is why we are here today. We 
must ask the difficult questions. We must address our 
vulnerabilities. And we must ensure that we are ready to 
respond to an attack anywhere in the United States.
    Our best weapon, of course, is public awareness. Rumors and 
misinformation just play into the hands of the terrorists. They 
create fear and insecurity. We should arm our citizens with 
scientific and accurate information.
    Today, I am announcing my introduction of S. 1548, the 
Bioterrorism Awareness Act. The bill would create an integrated 
website containing accurate, scientifically-based information 
about bioterrorism. The website will serve as the official 
Federal Government source of information for the public. 
Currently, there is information on bioterrorism on a variety of 
Federal websites. Since the bioterrorism information on these 
websites can be very difficult to find, I think where it would 
be well for us to select a central location that the public can 
go to get accurate bioterrorism information geared specifically 
to their needs.
    For example, we need to be sure that our doctors know how 
to recognize the symptoms of a bioterrorism outbreak. There 
will be a section on the website with information geared toward 
health care professionals. Another section of the website will 
be geared to help farmers and other personnel involved in the 
Nation's food supply system to protect themselves, their 
livestock, and the Nation's food supply in the case of an 
attack.
    States are key players in our country's ability to respond 
effectively to a bioterrorist attack, and I am pleased that in 
a later panel we will have Dr. Maureen Dempsey, Director of the 
Missouri Department of Health and Senior Services, here to 
testify and to share the State perspective. States need 
sufficient resources to prepare for, detect, and respond to 
bioterrorist attacks.
    To give States these resources, I have signed on as an 
original cosponsor to the State Bioterrorism Preparedness Act 
sponsored by Senator Evan Bayh. It will give State Public 
Health Agencies the resources to have surveillance systems in 
place so that they are equipped to detect any pattern of 
unusual illness that could indicate a biological attack. This 
is just one example of what the bill would support.
    In addition, I have asked the Appropriations Committee to 
provide $2.5 million for the St. Louis University Center for 
Research and Education on Bioterrorism and Emerging Infections. 
The SLU Center for Research and Education on Bioterrorism is 
the only CDC Public Health Preparedness Center devoted to 
bioterrorism preparedness, training, and education. Its work is 
more important now than ever before. The funding should help 
the center meet the increased demands for its considerable 
expertise.
    Certainly, we need to be vigilant in this struggle. Given 
the resources, I know that our law enforcement officials as 
well as our public health authorities can get the job done, but 
we need to act quickly and effectively.
    Thank you, Mr. Chairman, for calling this very timely and 
important hearing and I have one question for the Secretary. In 
the last month, we have seen what a powerful role the media can 
play in relaying information to the public. The media has the 
ability either to calm our fears or to increase our anxiety. 
What has HHS done to educate the media on how to communicate to 
the public during a bioterrorist attack in such a way that it 
minimizes people's fears?
    Mr. Thompson. Thank you very much, Senator. Let me 
compliment you on the introduction of your bill. It is badly 
needed and I hope that you will get bipartisan support for it 
and I applaud you for doing that.
    Second, what we did first was we wanted to make sure that 
we contacted the State health departments and local health 
departments. We have what is called the Health Alert Network 
and we are hooked up with, at the present time, 37 States. We 
have just given out enough grants to have us hooked up to all 
50 States. I would like to be able to expand that in the future 
so that the HAN, the Health Alert Network, could be expanded 
into the counties. There is money in the appropriation bill for 
that, and I think that would be the best way in order to get 
information.
    We also set up a 24-hour hotline in regards to giving 
information out and receiving information from local health 
departments and doctors, from hospitals and so on who could 
call up and give us information and ask questions.
    Third, Jeff at CDC, Dr. Koplan, and myself spoke to all of 
the health departments on a teleconference last Saturday and we 
answered their questions and we are going to do the same thing 
tomorrow for the American Medical Association and the American 
Hospital Association and get out information through the 
teleconference. On Friday, I am talking to all the governors on 
a teleconference about what they can do and how they can report 
to their constituents on bioterrorism, and next week, we are 
going to do the same thing with the country's mayors. Those 
mayors who want to hook up on a teleconference, we are going to 
be able to do that, or through a webpage.
    Finally, last night, we had an informational meeting with 
the print press in which we had three doctors and myself answer 
their questions over the telephone. There were a lot of press 
on, I do not know how many, and we have been holding briefing 
meetings through my press office with the press about the 
status and things like this. But it is very hard to knock down 
all the rumors. We are getting thousands of rumors, as you can 
well imagine, and it is difficult to be able to answer all of 
those rumors, but we are trying to do the best job we possibly 
can.
    I would just like to leave you with one thing and that is 
that we have to make sure that people understand, even with all 
of the individual exposures on anthrax, there still are only 
four cases, two in Florida and two in New York, and even though 
you are exposed, it is not a disease that can be conveyed to 
another individual. It is one that can be treated with 
antibiotics, and I am happy to be able to report that of all 
the things that we have seen on anthrax, all of them have been 
sensitively proven that antibiotics work, and it is not only 
ciprofloxacin, it is doxycycline, it is penicillin. By allowing 
generic drugs for doxycycline and penicillin, they should be 
very reasonably priced so that individuals, if the need be, can 
purchase it.
    I would not in any way encourage people to horde these 
pharmaceutical drugs because the government has got plenty in 
supply to be able to take care. We will have enough right now 
to handle 2 million Americans with Cipro and other antibiotics 
for 60 days and we are asking the Congress to allow us to 
purchase and give us the money to purchase an additional 10 
million for 10 million individuals, enough supply to handle 
then 12 million individuals in America. We are purchasing 
vaccine for smallpox and we feel that we will have enough of 
that within the year to treat 300 million Americans.
    Senator Carnahan. That is exactly the message we need to 
hear in America today. Thank you very much, Mr. Secretary.
    Mr. Thompson. Thank you very much.
    Chairman Lieberman. Thank you, Senator Carnahan.
    Secretary Thompson, thanks very much. You have been not 
only cooperative and informative, but really reassuring. Again, 
I appreciate the fact that you are there, that you are doing 
the job you are. I thank you for the specific announcements 
that you have made today, the ones that you have just 
mentioned, that the American people can be sure that their 
government is prepared, and insofar as the Senator first said a 
while ago, but we may be under-prepared, we are moving rapidly 
to close that gap.
    For our part on this Committee, I hope that we can be 
supportive in helping you assert your leadership and making 
sure that all the agencies and offices of the Federal 
Government that have any responsibility or programs for 
chemical and biological warfare are well coordinated and 
directed, and I think you are right that Governor Ridge is now 
the person to do that.
    Anyway, thank you, God bless you, and good luck in your 
work.
    Mr. Thompson. Thank you so very much. Thank you for holding 
the hearing.
    Chairman Lieberman. Thank you.
    We will now call the second panel. Michael Brown is the 
Acting Deputy Director of the Federal Emergency Management 
Agency. Deborah Daniels is Assistant Attorney General, Office 
of Justice Programs, U.S. Department of Justice. Henry L. 
Hinton, Jr., is the Managing Director of Defense Capabilities 
and Management, U.S. General Accounting Office. Anna Johnson-
Winegar is Deputy Assistant to the Secretary for Biological and 
Chemical Defense at the U.S. Department of Defense.
    I wonder if I might also call to take a chair at the end of 
the table Gary McConnell, who is the Director of the Georgia 
Emergency Management Agency, who is testifying on behalf of the 
National Emergency Management Association. Why do you not pull 
right up in that comfortable chair, Mr. McConnell. I gather 
that you have got plane pressure. How soon do you have to 
leave?
    Mr. McConnell. Mr. Chairman, I will be here as long as you 
need for me to. I just need to get back to Atlanta at my 
earliest convenience, but if I can get out of here by 1:30 or 2 
o'clock, I will be fine.
    Chairman Lieberman. Oh, you do? OK. If this panel moves, 
maybe we will wait and bring you on on the third panel.
    Mr. McConnell. OK, sir.
    Chairman Lieberman. If not, I will call you earlier.
    I thank you all for your patience under these unusual 
circumstances. The testimony you prepared will be submitted in 
full as part of the record. To the extent that you can keep 
your remarks to 5 minutes, I would appreciate it, but if you 
feel like you have some more to say and you need to say it, we 
will not physically remove you from the premises, I assure you. 
[Laughter.]
    Mr. Brown, please proceed.

 TESTIMONY OF MICHAEL D. BROWN,\1\ ACTING DEPUTY DIRECTOR AND 
      GENERAL COUNSEL, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Brown. Thank you, Mr. Chairman, Members of the 
Committee. I really appreciate the opportunity to be here today 
and speak on behalf of Director Allbaugh and all of the workers 
in New York City, the Pentagon, and here at headquarters of the 
Federal Emergency Management Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brown appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    What I would like to do is give you a very broad overview 
of FEMA's preparedness response activities to both natural and 
manmade disasters and how those programs make FEMA uniquely 
fitted to deal with the consequences of terrorism, regardless 
of the type of terrorism.
    But first, I want to talk about the immediate response to 
the attacks at the Pentagon and the World Trade Center. On the 
day of the attacks, September 11, I was in Big Sky, Montana, 
preparing to give a speech about terrorism at 11 o'clock that 
morning when I received a phone call that said, ``Turn on your 
television. We are under attack.'' I turned on the television 
and realized immediately that I needed to get out of Big Sky, 
Montana, along with Director Allbaugh. We jumped a military 
plane and came back to DC, after finding a military plane that 
could get us back there.
    But I thought about that speech and the three things that I 
wanted to say in that speech on September 11 are equally 
applicable today, and it is probably a speech that I could give 
anywhere else in the country, any other time in the future. 
Three things.
    First, this administration recognizes that the first 
individuals to respond to the 911 phone calls are the local and 
State emergency managers, the fire departments, emergency 
medical services, and law enforcement. Those truly are the 
first responders. When someone dials 911, they do not call 
Washington, DC. They call their local officials.
    Second, we rely upon and must rely upon the wisdom and the 
experience of those at the State and local levels as we prepare 
and work toward a national plan that includes the active 
participation of all levels of government.
    And third, and probably most importantly, the Federal 
Government must provide a comprehensive national strategy to 
prepare for terrorist attacks. Our goal, our strategy must be 
to provide the best resources, the best education, the best 
guidance, and the best training to the State and local 
officials to enable them to respond when, indeed, they are 
called in that 911 phone call.
    I often think of duty honoring country when reflecting on 
the events of September 11. The response that day and every day 
demonstrates the true heroism of all of those who responded, 
fire fighters, policemen, emergency medical technicians, the 
emergency managers, all who placed themselves in danger to 
respond and help those in need. Many of those heroes tragically 
lost their lives that day, rushing to the scene to save lives, 
rescuing the trapped and the injured. They were, in fact, being 
the first responders. Our hearts hurt with them and for the 
innocent families who lost loved ones. Now we must, however, be 
prepared for long-term recovery efforts and stand united and 
ready to assist those who were injured both physically and 
emotionally.
    The level of cooperation and professionalism by the 
Federal, State, and local agencies and emergency responders in 
responding to New York and the Pentagon have been absolutely 
outstanding. The American people can and should be proud of the 
work that they have done in helping the Nation recover from 
those incidents.
    At FEMA, our mission is to reduce the loss of life and to 
reduce damage to property, and that mission applies to all 
hazards, to all disasters, whether those disasters are manmade 
or whether they are natural disasters. When a disaster 
overwhelms the response capabilities of State and local 
governments, the President may sign an emergency or major 
disaster declaration. On September 11, the President did that. 
Declarations were signed immediately and response of the 
Federal Government was immediate.
    As in response to other presidentially declared disasters 
and emergencies, FEMA utilized the Federal Response Plan to 
coordinate the government's response activities to those 
disasters. We use this tool, on average over the past 10 years, 
53 times a year in responding and coordinating the Federal 
Government's response to a disaster. The Federal Response Plan 
provides the framework for 26 different Federal departments and 
agencies, as well as the American Red Cross, to respond and 
support the efforts of State and local governments.
    These Federal agencies are organized into interagency 
functions based on their authorities and their expertise and 
the needs of the counterparts at the State and local 
government. For example, as we heard from Secretary Thompson, 
HHS is the lead support agency for health and medical needs.
    Since 1992, the Federal Response Plan has been used exactly 
under this mechanism to respond to disasters, regardless of the 
cause. To the Members of this Committee, you are familiar with 
the response that FEMA has in natural disasters, whether it be 
floods in Ohio or fires in New Mexico, tornadoes in Oklahoma, 
whatever it is. You are accustomed to how we respond. That is 
exactly how we responded in New York.
    The Federal Response Plan worked in New York City just as 
it worked in Oklahoma City in 1995. The effectiveness of the 
Federal Response Plan has clearly been demonstrated, and that 
is why the Federal Response Plan must be used to identify 
Federal resources and response capabilities for the threat of 
biological terrorism.
    Immediately following the attacks on September 11, 
President Bush recognized the need to respond quickly and 
accurately, to make certain that the Federal Response Plan was 
working the way it was supposed to. The President convened 
three different working groups to respond to those disasters, a 
military or foreign policy response group, a protection 
response group, and the group that he asked me to chair, the 
consequence management working group.
    That group is responsible and is still working today--and, 
in fact, Senator, we are meeting this afternoon on another 
issue--was responsible for identifying those issues, those 
holes, if you want to call them that, in the Federal Response 
Plan and how do we fix those. We identified those holes and we 
divided them into three categories, first, those holes that we 
needed to fix immediately, that we had to fix today. Then those 
holes that we need to fix in the next 30 or 60 days, and then 
the long-term fixes that we could put off and deal with in a 
longer-term situation.
    The result of that consequence management working group you 
are seeing today. You are seeing, as Secretary Thompson 
indicated, the push packs being increased, the vaccine issue 
being addressed, the issue of what we are going to do with the 
antibodies. All of those issues were addressed by the working 
group and briefed to the President and the President had 
decision papers directing us exactly what to do with those 
issues. That is how the Federal Response Plan is supposed to 
work, and, indeed, how it did work.
    We see Governor Ridge as the President's spokesman for all 
issues regarding terrorism. Yesterday, for example, Governor 
Ridge asked FEMA to take the lead in organizing a joint 
information center to coordinate all of the efforts going on 
between FEMA, Health and Human Services, FBI, Department of 
Justice, all of the agencies, so there can be one centralized 
location for the administration to put out the message of what 
they are doing and what the response should be and how the 
American public can respond. We intend to put together packets 
for the American public so they will have information that is 
helpful to them in responding to this new crisis. Clearly, 
groups such as HHS will be involved in that effort.
    The threat of a biological attack presents unique 
challenges to this country's response system. The first 
responders in a biological event shift, as I think Senator 
Collins mentioned earlier, from the fire fighter and the 
policeman to the doctors, to the Public Health Service, to 
those people that will now need to respond in an emergency 
situation.
    The Department of Health and Human Services is a critical 
link between the health and medical community and the larger 
Federal response. In all disasters, FEMA works closely with 
HHS, the Public Health Service, and the Centers for Disease 
Control to make certain that we have the assets and the 
response mechanism that we need in this type of incident. In 
New York and in the Pentagon, that is exactly what occurred.
    Again, as the lead agency with responding and coordinating 
a response to a disaster, whether manmade or natural, we have 
tasked HHS to put together to the Federal Response Plan a 
Bioterrorism Annex so the Federal Response Plan will have in 
place for future agencies, for future people working in those 
agencies, the response and coordinated effort that they must 
have.
    Just like Secretary Thompson, Director Allbaugh and I met 
yesterday with Governor Ridge to provide him with information 
about this very response mechanism. In Director Allbaugh's 
testimony yesterday before the Senate Committee on Environment 
and Public Works, he stated that he could think of no greater 
person than Tom Ridge for the position of the Director of 
Homeland Security. FEMA is committed to working with Governor 
Ridge in that respect and will implement the strategy that he 
asks us to do so.
    We kind of see Governor Ridge as the conductor of this 
great orchestra, telling us what we need to do and how to do 
it. He has the power because he speaks on behalf of the 
President of the United States. As Director Allbaugh will also 
serve on the Homeland Security Council, FEMA will support the 
office to any extent that the governor asks us.
    We believe that FEMA is ready, able, and willing to 
respond, as seen in New York. We are ready, willing, and able 
to respond in any future incidents and believe we have the 
mechanism to do so.
    Mr. Chairman, thank you for convening this meeting so that 
we can discuss about the organizational issues facing the 
government at this time.
    Chairman Lieberman. Thanks, Mr. Brown. I look forward to 
the question and answer period with you.
    Ms. Daniels, thank you for being here on behalf of the 
Department of Justice.

  TESTIMONY OF HON. DEBORAH J. DANIELS,\1\ ASSISTANT ATTORNEY 
GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Ms. Daniels. Thank you, Mr. Chairman and Senator Akaka. I 
am pleased to have this opportunity to talk about the Office of 
Justice Programs' (OJP) efforts related to bioterrorism and our 
coordination with the Department of Health and Human Services 
on this critical issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Daniels appears in the Appendix 
on page 96.
---------------------------------------------------------------------------
    As you know, since 1998, OJP's Office for Domestic 
Preparedness, to which I will refer as ODP for short, has been 
working to help State and local public safety personnel acquire 
the specialized training and equipment they need to safely 
respond to and manage domestic terrorism incidents, 
particularly those involving weapons of mass destruction. Of 
course, these efforts have taken on new urgency in the 
aftermath of the September 11 attacks.
    And as the Senators have suggested this morning, State and 
local personnel are on the front lines. They are typically 
first on the scene of any emergency and first to respond in the 
event of a terrorist attack. ODP is working to ensure that 
these brave men and women are well prepared and as well 
equipped as possible for these potentially catastrophic events.
    Over the past 3 years, ODP has worked to develop and 
implement a national program to enhance the capacity of State 
and local agencies to respond to domestic terrorism incidents. 
We provide coordinated training, equipment acquisition, 
technical assistance, and support for national, State, and 
local exercises to address a wide range of potential threats, 
including chemical, biological, radiological, nuclear, and 
explosive weapons.
    We also support the efforts of the Department of Health and 
Human Services, particularly the U.S. Public Health Service and 
the Centers for Disease Control, to deliver training and 
equipment assistance to the public health and medical 
communities, and we have worked with HHS to test the Nation's 
bioterrorism response capacity through the use of field 
exercises. This partnership has been beneficial to both HHS and 
to our Office for Domestic Preparedness. Whereas ODP has taken 
the lead in reaching the public safety and emergency response 
community, we have deferred to HHS to lead the preparedness 
effort for public health and medical personnel.
    ODP's domestic preparedness activities are concentrated in 
the areas of training and technical assistance, equipment, 
planning, and field exercises. We provide over 30 direct 
training and technical assistance courses and programs to 
enhance the capacity of State and local jurisdictions to 
prepare for and to respond to terrorist attacks on U.S. soil.
    Since 1998, we have provided training to over 77,000 
emergency responders in 1,355 jurisdictions in all 50 States 
and the District of Columbia. We have also completed over 2,000 
deliveries of technical assistance to State and local response 
agencies, and we are completing delivery of the Nunn-Lugar-
Domenici training program to the remaining 52 of the Nation's 
120 largest cities that did not receive all elements of the 
program from the Department of Defense before the transfer of 
the program to the Justice Department. This training will 
include a biological weapons tabletop exercise and briefings on 
the U.S. Public Health Service's Metropolitan Medical Response 
System, to which Secretary Thompson referred.
    ODP is also working with all 50 States, the District of 
Columbia, and the five U.S. territories to help them develop 
comprehensive 3-year domestic preparedness strategies. These 
strategies are based on integrated threat, risk, and public 
health assessments that are conducted at the local level. They 
will identify the specific level of response capability 
necessary for a jurisdiction to respond effectively to a 
terrorist incident involving weapons of mass destruction.
    Once assembled and analyzed, these plans will present a 
comprehensive picture of equipment, training, exercise, and 
technical assistance needs across the Nation. In addition, they 
will identify Federal, State, and local resources within each 
State that could be utilized in the event of an attack. We 
anticipate receiving the majority of these strategies by 
December 15 of this year. We then will work with each State and 
territory to implement assistance specifically tailored to the 
needs identified in their own plans.
    The Attorney General recently wrote to each governor 
stressing the urgency of completing these assessments. He has 
directed ODP to place the highest priority on analyzing these 
strategies and helping States to meet the identified needs as 
quickly as possible.
    To give you an idea where we have been in terms of 
providing dollar assistance, in fiscal year 1999, States 
received a total of $54 million in initial planning and 
equipment funds under the program. They are scheduled to 
receive an additional $145 million in fiscal year 2000 and 2001 
funds as their plans are completed. In addition, from 1998 
through this year, we have provided a total of $242 million in 
equipment grants for 157 local jurisdictions, the 50 States, 
the District of Columbia, and the five U.S. territories under 
the County and Municipal Agency Equipment Program. These funds 
are helping to ensure that State and local personnel have the 
specialized equipment they need to safely and effectively 
respond to biological, chemical, or other hazardous incidents.
    And as indicated in my written testimony that I have 
submitted, OJP, the Office of Justice Programs as a whole, 
makes available additional millions to each State in the form 
of block grants that can be utilized for law enforcement 
equipment for first responders.
    Finally, Mr. Chairman and Senator Akaka, ODP provides 
funding and technical assistance to state and local 
jurisdictions to support local and regional interagency 
exercises. These exercises test crisis resistance, identify 
procedural difficulties, and provide a plan for corrective 
action to improve crisis and consequence management response 
capabilities without the penalties that might be incurred in a 
real crisis.
    In May 2000, we conducted TOPOFF, the largest exercise of 
its kind, involving separate locations and a multitude of 
Federal, State, and local agencies. TOPOFF simulated 
simultaneous chemical and biological attacks around the country 
and provided valuable lessons for the Nation's emergency 
response communities.
    ODP has begun planning for the Congressionally mandated 
TOPOFF 2 exercise, which will be conducted in the spring of 
2003, and we are working with the Department of Energy to 
establish a Center for Exercise Excellence at the Nevada test 
site that will help to ensure the operational consistency of 
weapons of mass destruction exercises nationwide.
    ODP actively coordinates its programs with other Federal 
agencies to ensure that the highest quality training and 
technical assistance is provided to the Nation's emergency 
response community while also eliminating duplication of 
Federal resources. For example, we helped to establish TRADE, 
the Training Resources and Data Exchange working group. TRADE 
includes representatives from the National Fire Academy, the 
FBI, FEMA, the EPA, the Department of Energy, HHS, and 
specifically the CDC. TRADE is already working on a number of 
joint initiatives that will enhance the coordination of 
training delivery resources in accordance with State 
strategies.
    These and other joint endeavors will greatly enhance the 
capacity of the Nation as a whole to respond safely and 
effectively to incidents of terrorism involving weapons of mass 
destruction, including biological agents. We are committed to 
continuing build on the efforts already underway to ensure that 
States and local jurisdictions have the training and resources 
they need as a vital link in our Nation's response to 
terrorism.
    Once again, Mr. Chairman, I want to thank you for the 
opportunity to describe the efforts of the Office for Domestic 
Preparedness in this vitally important area and, of course, 
will be pleased to respond to any questions the Senators have. 
Thank you.
    Chairman Lieberman. Thanks, Ms. Daniels. Let me just take 
the liberty to ask you to speak a moment more about the TOPOFF 
exercise, how it was conducted and, just briefly, what the 
conclusions were about our state of preparedness.
    Ms. Daniels. Mr. Chairman, TOPOFF was conducted at multiple 
sites. There were multiple exercises so that we could literally 
test our preparedness to respond to multiple events, including 
biological terrorist attacks.
    Chairman Lieberman. So you simulated biological attacks in 
different regions of the country?
    Ms. Daniels. Correct. I believe that in Denver, the 
biological exercise occurred.
    Chairman Lieberman. And chemical exercises elsewhere, was 
that----
    Ms. Daniels. Portsmouth, New Hampshire. My experts are 
behind me. Thank you.
    Chairman Lieberman. Right.
    Ms. Daniels. And there has been an analysis that has been 
conducted that is contributing to the preparation for TOPOFF 2, 
and I think some valuable lessons were learned and have been 
disseminated to those who are responsible for preparing for 
potential events in the future.
    Chairman Lieberman. To the best of your recollection, would 
you say that the conclusion from those TOPOFF exercises 
simulated attacks was that we were--to use a formulation that 
we are involved in here now--adequately prepared, under-
prepared, or unprepared?
    Ms. Daniels. My understanding, Mr. Chairman, is that at the 
time the TOPOFF 1 exercise took place, I think it clarified 
some interesting gaps in our preparedness at that time. There 
has been time in the interim, I think, to deal with those gaps 
and I would hope that we could say that we are close to at 
least being adequately prepared for the future.
    Chairman Lieberman. But probably for now, we would say we 
are under-prepared? We are not unprepared.
    Ms. Daniels. We are not unprepared.
    Chairman Lieberman. Right. Thanks.
    Mr. Hinton, thank you for being here. We are always glad to 
see somebody from GAO. We consider you part of the Governmental 
Affairs family.

   TESTIMONY OF HENRY L. HINTON, JR.,\1\ MANAGING DIRECTOR, 
 DEFENSE CAPABILITIES AND MANAGEMENT, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Mr. Hinton. Thank you, Mr. Chairman and Senator Akaka. I 
appreciate the opportunity to be here today to discuss GAO's 
work on efforts to prepare for and respond to chemical and 
biological terrorist attacks. My comments today are based on 
several of our recently issued reports, including our September 
28 report on Federal research and preparedness activities to 
counter biological terrorism. My colleague, Dr. Jan Heinrich, 
who directed that work, is with me today, sitting right behind 
me on my left. For this hearing, we also took a quick look at 
50 Federal exercise evaluations to identify problems associated 
with chemical and biological terrorism that needed to be 
addressed.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hinton appears in the Appendix on 
page 107.
---------------------------------------------------------------------------
    I will briefly address three points, Mr. Chairman. First, I 
will highlight some of the specific Federal programs and 
coordination challenges to prepare for and respond to chemical 
and biological agents or weapons. Second, I will point out some 
of the problems identified in the evaluations of the 
preparedness exercises. And finally, I will offer some 
suggestions for Congress to consider for investing resources in 
chemical and biological preparedness.
    I want to echo a comment you made right at the onset of the 
day's hearing, Mr. Chairman. The body of work that we have done 
over the last several years shows that there has been progress 
on many fronts. But as you said, and we agree, there is more to 
be done.
    Let me turn to the programs. The Federal Government has a 
variety of programs to prepare for and respond to chemical and 
biological terrorism. They include response teams, support 
laboratories, training and equipment programs, and research 
efforts. These programs face two coordination challenges, if I 
could refer you to the graphic.\1\
---------------------------------------------------------------------------
    \1\ Chart referred to by Mr. Hinton appears in the Appendix on page 
123.
---------------------------------------------------------------------------
    At the program level, our first graphic illustrates the 
complex relationships among some of the key Federal departments 
and agencies involved in just biological terrorism research and 
preparedness activities. I am not going to go into the details 
on that, but you can get the gist of the complex relationships 
there.
    Chairman Lieberman. It looks messy.
    Mr. Hinton. At the operational level, our second graphic 
identifies the Federal response teams available to provide 
assistance to State and local first responders, if needed, for 
chemical and biological terrorism. If you were to add the State 
and local government activities to each graphic, the 
relationships will be more complex and the coordination 
challenge that much more extensive. A number of interagency and 
intergovernmental plans and working groups are involved in 
coordinating these activities.
    Let me turn to our analysis of exercise evaluations, also 
known as after-action reports. We identified a number of 
problems that require solutions to improve preparedness. The 
problems and their solutions fell into two categories.
    One category was those problems and solutions that are 
generally applicable to any type of a terrorist incident, major 
accident, or natural disaster. For example, they covered issues 
involving command and control, specifically the roles, 
responsibilities of different agencies. The legal authority to 
plan and carry out a response to a WMD terrorist incident were 
not always clear, which resulted in a delayed and inadequate 
response. In the communication area, interoperability 
difficulties exist at the interagency and intergovernmental 
level.
    Last, in planning and operations, State and local emergency 
operation plans did not always conform to Federal plans.
    The other categories were those problems and solutions that 
are applicable to both chemical and biological terrorist 
events. Those problems included issues involving public health 
surveillance, a topic that has come up this morning. 
Specifically, the basic capacity for public health surveillance 
for biological terrorism and emerging infectious diseases is an 
urgent preparedness requirement at the local level. The 
detection and identification of chemical and biological agents 
was another problem frequently raised in exercise evaluations. 
The capability of first responders and specialized response 
teams to rapidly and accurately detect, recognize, and identify 
chemical and biological agents and assess associated health 
risks can be slow. Equipment and training was another problem. 
First responders often lack specialized personal protective 
equipment or chemical or biological detection kits. And 
finally, problems were identified in the laboratories. Even a 
small outbreak of an emerging disease was determined to strain 
the resources. There is a need for broadening laboratory 
capabilities, ensuring adequate staffing and expertise, and 
improving the ability to deal with surging and testing needs.
    Let me turn to the resource question, Mr. Chairman. 
Congress faces competing demands for spending as it seeks to 
invest resources to better prepare our Nation for chemical and 
biological terrorism. As the Comptroller General recently 
testified before this Committee, we believe a risk management 
approach must be used. It should include a threat assessment to 
determine which chemical and biological agents are of most 
concern in order to focus finite resources on areas of greatest 
need.
    Our work shows that some of the solutions to improve the 
response to chemical and biological terrorism have broad 
applicability across a variety of contingencies, while other 
response solutions are only applicable to a specific type of 
attack. For example, efforts to improve public health 
surveillance would be useful in any disease outbreak, whereas 
efforts to provide vaccines for a specific disease would only 
be useful if terrorists used that disease in a biological 
attack.
    Until the results from a risk management approach is 
available, Congress may want to initially invest resources in 
areas with broad applicability, and as threat information 
becomes more certain, it may be more appropriate to invest in 
efforts applicable to specific chemical or biological agents.
    Mr. Chairman, that completes my statement and we stand 
ready to answer any questions.
    Chairman Lieberman. Excellent. Thank you.
    Dr. Johnson-Winegar.

 TESTIMONY OF ANNA JOHNSON-WINEGAR,\1\ PH.D., DEPUTY ASSISTANT 
    TO THE SECRETARY OF DEFENSE FOR CHEMICAL AND BIOLOGICAL 
              DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Dr. Johnson-Winegar. Thank you. Mr. Chairman and 
distinguished Committee Members, I would like to briefly 
describe for you the role of the Department of Defense.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Johnson-Winegar appears in the 
Appendix on page 124.
---------------------------------------------------------------------------
    As we all know, the tragic events of September 11 and the 
more recent anthrax cases have heightened the public's 
awareness of the threat posed by biological terrorism. The 
Department of Defense has long considered the use of biological 
weapons as a possible means by which State and non-state actors 
might counter America's overwhelming conventional war-fighting 
strength. This is often referred to as an asymmetric threat.
    In response to this threat, Congress indeed directed the 
Department of Defense to consolidate all our efforts in 
chemical and biological defense, and since that consolidation 
in 1994, and with the continued support of the Congress, I feel 
that the Department of Defense has made significant progress in 
fielding defensive equipment for our war fighters and we stand 
ready to assist the civilian community through our technology 
sharing, through technical advice, and as otherwise requested 
by the appropriate authorities.
    In order to meet the challenge of biological warfare across 
the spectrum, our program must address the need for both 
material improvement and operational concepts to address this 
threat. In order to address this more thoroughly, we have 
indeed documented gaps and deficiencies through the use of 
exercises such as TOPOFF and there will be a continuing relook 
and refocus of the prioritization of efforts within the 
Department of Defense.
    One of the lessons that we learned from the TOPOFF exercise 
was that to work effectively during an actual crisis, various 
governmental agencies must actually exercise together 
beforehand or their cultural differences will possibly overcome 
the plan. We will continue to work with the other agencies, 
including the new Office of Homeland Security, to ensure good 
working relationships. One specific area that we will focus on 
is to help define what support the Department of Defense can 
provide.
    As you may know, the Department of Defense does, indeed, 
have unique expertise and materiel. However, we are not charged 
with lead Federal agent responsibilities as described in the 
Federal Response Plan. In the area of domestic terrorism 
medical response, the Department of Health and Human Services 
takes charge and requests support as needed. In my testimony 
today, I will outline the ways the Department of Defense can 
provide materiel support to other organizations and how we help 
to coordinate the efforts.
    Requests for specific materiel may come to the Department 
of Defense from a number of different avenues. These requests 
are approved on a case-by-case basis, and indeed, my office has 
dealt with a number of requests from other Federal agencies for 
individual and collective protective equipment and access to 
vaccine, while the operational support provided by the 
Department of Defense is coordinated through the Army. The 
Department will continue to provide the support within our 
means and balance this against our main requirement, which is 
to provide for the readiness of our military forces to 
accomplish their war-fighting mission.
    DOD can, indeed, offer many of its systems, either in the 
field or otherwise, or expertise that may, indeed, prove useful 
to the civilians. Our chemical and biological detection 
equipment, for example, could be applied in many civilian 
situations, as can many of the medical countermeasures that we 
have developed. However, I caution that the provision of 
materiel alone does not enhance one's capability. It needs to 
be accompanied by valid operational concepts, training, and 
maintenance.
    The mission of the DOD's chemical and biological defense 
program is to provide specific materiel to allow our Armed 
Forces to be trained and equipped to conduct their operational 
mission in an environment contaminated with chemical or 
biological agents. Therefore, our Armed Forces are, indeed, 
trained primarily for traditional war-fighting requirements. 
However, we also maintain significant capabilities to support 
homeland security through such operational units as the 
Technical Escort Unit, the WMD Civil Support Teams, and the 
Marines' Chemical and Biological Incident Response Force.
    In order to enhance our Nation's overall capabilities, the 
Department of Defense participates in many programs to support 
the transition of military equipment and concepts to other than 
DOD agencies. I would like to name a few of those.
    Specifically, we participate as a member of the Technical 
Support Working Group, which rapidly prototypes emerging 
technologies for high-priority Federal interagency 
requirements. We participate in the Interagency Board for 
Equipment Standardization and Interoperability, known as the 
IAB, which is a partnership with Federal, State, and local 
agencies focused on the capabilities necessary for local 
responders, that is fire, medical, and law enforcement, in 
order to be able to cope with WMD terrorism. We also 
participate in the Domestic Preparedness Program mandated under 
the 1997 Nunn-Lugar-Domenici legislation, and indeed help to 
train and equip many municipalities and have subsequently 
transferred that program to the Department of Justice, as was 
previously mentioned.
    We have a number of interagency agreements with the 
Department of Justice, Office of State and Local Domestic 
Preparedness, to purchase specific equipment. We help provide 
medical training programs from our U.S. Army Medical Research 
Institute for Infectious Diseases, for biological agents, and 
our Institute for Chemical Defense for chemical agents. And we 
also participate in the White House Office of Science and 
Technology Policy Program on Weapons of Mass Destruction 
Research and Development Subgroup.
    I think that these efforts represent just a small snapshot 
of the Department of Defense efforts to address bioterrorism. 
As the individual lead Federal agencies assess their needs, DOD 
anticipates additional requests for our participation in these 
groups.
    The Department of Defense has established a set of 
requirements for the successful completion of military 
operations in chemical and biological environments. As you 
know, we submit an annual report to the Congress documenting 
our progress in meeting these requirements. My office 
additionally continues to coordinate our efforts, and I would 
particularly like to point out our coordination with the 
Department of Energy, Department of Health and Human Services, 
and the intelligence community, as is reported in our 
Counterproliferation Program Review Committee.
    DOD again, in conclusion, I believe, works regularly with 
the lead Federal agents to coordinate requirements and 
development efforts for biological terrorism. In addition to 
coordination, there are a number of other mechanisms for the 
Defense Department to provide assistance to other Federal, 
State, and local agencies. In light of recent events, the 
Department certainly anticipates a greater number of requests 
for assistance. DOD will address these requests on a case-by-
case basis to make sure that public safety is enhanced and that 
the DOD can still accomplish its war-fighting mission.
    I would like to thank you for the opportunity to speak with 
you today and for holding this hearing on what I feel 
personally is a very important topic. I will be happy to answer 
any of your questions.
    Chairman Lieberman. Thanks, Doctor. Thanks to all of you. 
As I listened to the references to the TOPOFF exercises, and, 
in fact, as I listened to the reports of what each of the three 
departments on this panel have been doing in regard to chemical 
and biological, the possibility of chemical and biological 
attacks, and including what Secretary Thompson testified to for 
HHS, there is some comfort here in the sense that we have been 
hearing, certainly here on Capitol Hill, for a long time, 
warnings and concerns. We have all expressed ourselves, or a 
lot of us have, about the possibility of chemical and 
biological attacks against the United States.
    And the good news here is that we, and you, and the Federal 
Government together have created a series of programs to 
prepare for and help us better respond to those attacks. So I 
feel very strongly that we are right when we say America is not 
unprepared for chemical and biological attacks. We are under-
prepared, and our fear on this Committee, mine certainly, is 
that we are also under-organized, and I take that to be part of 
what your conclusions, Mr. Hinton, were, GAO's.
    I feel that as I hear the testimony that the three 
departments have offered here on this panel, it seems to me 
that Justice has a series of programs for State and local 
governments to receive training and equipment. FEMA has 
programs to do some of the same. HHS has programs. DOD has some 
programs, a little bit different, but also reaching out to 
State and local to help train, because those are the first 
responders.
    So my question, and maybe I will start with you, Mr. Brown, 
is who is in charge? Maybe I ought to go about it in a slightly 
different way. In the best of all worlds, should we be, for 
instance, putting all of these various programs under FEMA as 
the coordinating agency? And I will give you a chance to 
respond, Ms. Daniels. Why does Justice have this authority? 
Would that not be better if it came under FEMA as the central 
response agency in the Federal Government?
    Mr. Brown. Mr. Chairman, I think maybe the best way to 
answer that question is to tell you what we have 
organizationally.
    Chairman Lieberman. Go ahead.
    Mr. Brown. Having only been in FEMA now since Director 
Allbaugh came on in February, I am amazed at the organizational 
structure we have to respond to these types of, or frankly, any 
kind of disaster. In our emergency support team operation, we 
have literally desks and cubicles for every agency that needs 
to be responding, so that whoever is in the field, if they have 
cross-cutting issues that need to be addressed, those can be 
addressed in the emergency support team function right here in 
Washington, DC. We eventually move those out into the field, 
like we are doing in New York right now, but there is a 
mechanism in place to do that coordination in FEMA right now 
and I think FEMA does it very, very well.
    I think what Governor Ridge brings to the table is the 
ability to say on a broader scale now, when things are not 
working and need to be coordinated, and he made this point to 
Director Allbaugh just the other day, training is a very 
important component that he wants to work on and he wants to 
make sure they are all working together. Because of his 
authority under the directive of the President, he can now say 
to all of us, we ought to start combining some of these 
programs. We ought to see who is doing it the best and make 
sure they are the ones taking the lead on that, and I think 
that is going to happen. I can just tell that by the way 
Governor Ridge is working things right now.
    But to go back to my initial point, FEMA has that structure 
set up now to coordinate all of those things. The emergency 
support functions that all come together in times of disaster 
and even non-disaster are in place to deal with those cross-
cutting issues.
    Chairman Lieberman. And FEMA has the authority or the 
cooperation of the other agencies so that, in fact, you have 
not had problems in responding to crises?
    Mr. Brown. Generally, yes.
    Chairman Lieberman. OK.
    Mr. Brown. I would say this, that when we have had a 
problem, it has taken the sheer willpower of individuals to 
conquer those problems. I think now Governor Ridge is in place 
to help us do that. And I think the other thing that the 
administration did to respond immediately to New York was to 
create the Domestic Consequences Principals Committee, which 
did that very thing, brought together in the White House a 
group of principals so that when there were issues that arose 
in the New York incident, we could resolve them right there at 
the table and get them done before they rose to the next level.
    Chairman Lieberman. Correct me if I am wrong, but it seems 
to me that in response to September 11, I was interested to be 
reminded that the immediate consequence management 
responsibility was actually in the Department of Justice, not 
in FEMA, where I would have guessed it would be. Is that 
correct?
    Mr. Brown. Well, no.
    Chairman Lieberman. No? OK.
    Mr. Brown. We have the initial response in terms of the 
consequence management. But in terms of the crisis management, 
in terms of the crime scene, that is the Department of Justice.
    Chairman Lieberman. So is that a clear enough distinction 
that Justice is involved in the law enforcement aspect of it 
but does not manage the scene where we want most of all to have 
rescue and relief occurring?
    Mr. Brown. I think it works quite well. I will give you an 
example. I think the Attorney General would like to say 
something, too.
    Chairman Lieberman. Yes.
    Mr. Brown. It is clear to me that, for example, in New York 
there was a problem with some communications that DOJ, the FBI 
needed to resolve immediately. FEMA was able to step in and 
resolve that for them. Is that really crisis management or 
consequence management? It is really a little bit of both, but 
because of them working together, we are able to solve those 
problems.
    And we know--I think FEMA is smart enough to know that when 
it is a crime scene, it is something the FBI needs to take the 
lead on. We back off and let them do that and support them to 
the greatest extent that we can.
    Chairman Lieberman. Ms. Daniels, why do you not respond 
about that, and then to the more general question, devil's 
advocate though it may be, why should not all these programs of 
training and assistance to local responders be in FEMA, for 
instance, because it is going to coordinate the response when a 
crisis occurs?
    Ms. Daniels. Senator, maybe I can back up a little bit and 
talk about how we came to be where we are, I suppose. During 
the 1990's, there were two Presidential directives that laid 
out the hierarchy and the delegation of responsibilities in the 
event of a terrorist incident. Those gave the Attorney General 
the basic authority to deal with the incident and allowed him 
to delegate crisis management to the FBI for the immediacy of 
the crisis and crisis management; and delegate the follow-up, 
or consequence management, to FEMA at the point where the 
crisis aspect has subsided, and we have reached the point where 
we can turn that corner.
    And I think that the theory was that that gives us the 
organizational capability in one official that will enable us 
to do that seamlessly. It seemed to work, in fact, very well, 
as Mr. Brown has indicated, in New York. I think everyone has 
been working wonderfully together.
    With regard to the larger issue, your first question, I 
think, was who is in charge----
    Chairman Lieberman. Right.
    Ms. Daniels [continuing]. And I would say that the 
President is in charge and Governor Ridge is his spokesman or 
his agent. And, frankly, the Department of Justice will do 
whatever it is that they determine is the best thing for us to 
do.
    We do have, and we have developed over many years, a very 
close working relationship with law enforcement and that has 
helped us in our training exercises. But we also not only work 
collaboratively with the other agencies, including FEMA, but 
also defer when it is a public health issue, to HHS. We do not 
try to do their job for them, and I think everyone has a piece 
of this pie and we are all right now seeking the best way to do 
that collaboratively.
    I liked what Governor Ridge said the day he was sworn in, 
which was that the only turf we should be concerned about is 
the turf we stand on, and I agree.
    Chairman Lieberman. From what you have said, it is clear to 
me that you think, and I agree, that we are in a better 
organizational structure now that Governor Ridge--that the 
Office of Homeland Security has been created and Governor Ridge 
is in charge. We may have our discussions and debates about 
exactly how much authority he has, but it does seem to me that 
he fills a gap that was there before. What would you say to 
that and what you have heard, Mr. Hinton?
    Mr. Hinton. Mr. Chairman, this report that we issued back 
on September 20 dealt right square on with that issue.
    Chairman Lieberman. Yes.
    Mr. Hinton. And based on all the work that we had done over 
the last several years, we saw a lot of fragmentation around 
some of the key leadership functions in the government, 
overseeing a national threat and risk assessment, setting 
priorities for national strategies, coordinating and monitoring 
international programs, providing liaison and assistance to 
state and local governments. These were spread throughout the 
Executive Branch.
    We made a recommendation to the President to establish a 
focal point within the Executive Office of the President that 
would rise above the individual agencies and deal with those 
functions and bring them together.
    Chairman Lieberman. Right.
    Mr. Hinton. To refer to your question about the programs, 
whether to put them in Justice or FEMA, there are four programs 
right now being run by HHS, Justice, and FEMA, all targeted to 
basically the same group in the State and local governments 
that are dealing with emergency preparedness. Well, if you can 
rise above that and have, like Governor Ridge, that may be one 
of the targets of opportunity for him to focus on to try to 
make some rational decisions as to how many programs we exactly 
need and the resources.
    Chairman Lieberman. In other words, we may not need them 
all, or maybe they can be consolidated in one or another 
department.
    Mr. Hinton. Exactly. You asked the question, how much 
redundancy might be needed and what is enough? Well, I think 
the appointment of Governor Ridge in that position was timely 
with respect to that issue. I think there are some long-term 
issues that need to be there.
    One goes to the definition of homeland security, everything 
we would put in it. How can the coordinator achieve real 
influence in the budget and resource allocation process, a 
question that has come up this morning, is a very important 
question that needs to be addressed. Should the coordinator's 
role and responsibilities be based on specific statutory 
authority? I think that is another question that the Congress 
needs to look at over the long term.
    Depending on the scope, structure, and organizational 
location of this new position, what are the implications for 
Congress in its ability to conduct oversight? I think that is 
another very important issue--and particularly as GAO's role in 
that effort to assist you, the Congress, in its oversight.
    Chairman Lieberman. I agree. Thanks. My time is up. Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Attorney General, I am concerned, and this has been alluded 
to, that there is a cultural divide between how the law 
enforcement and public health communities view bioterrorism. 
The difference is demonstrated by how the different groups 
answer the following question, and the question is, is a 
bioterrorist event a medical crisis with a law enforcement 
component or is it a crime scene with a public health aspect?
    Now, this question is for you and anyone else who wants to 
answer it and to comment on it. So my question is, how would 
you answer this?
    Ms. Daniels. Senator Akaka, actually, maybe this will be 
reassuring to you, coming from the Department of Justice, but I 
would say that an incident of biological terrorism is a medical 
crisis with a law enforcement component because, as has been 
discussed of late with regard to the anthrax situations and 
other things that could come up in a biological context, you 
are not going to necessarily have a crime scene where there is 
an explosion and something happens and you have to clean up 
after it. You are going to have people getting sick and they 
may be getting sick well after the incident that spurred the 
disease. So, frankly, we do think that is a medical crisis and 
that is why we want to work very closely with HHS.
    Senator Akaka. Thank you. Does anybody wish to comment 
otherwise?
    Let me ask you my second question. Agriculture terrorism 
presents a serious challenge to our legal system's ability to 
protect our agricultural industry. Currently, terrorism using a 
weapon of mass destruction is a very serious offense. However, 
the application of this law to agricultural terrorism is 
problematic because the use of biological weapons is defined as 
being directed against a person or public property of the 
United States. Therefore, a biological attack against 
agricultural land or livestock does not qualify as terrorism 
using a weapon of mass destruction.
    So my question is, do you feel that the threat of 
agricultural terrorism warrants amending the U.S. Code to 
include private property or agriculture in the definition of 
bioterrorism?
    Ms. Daniels. Senator, I can answer your question, I think, 
only partially, and my partial answer is that I absolutely 
think that we should have a serious concern about the safety of 
our livestock and it has to do with the safety of our entire 
food supply and everything else along the line. So I think it 
is very important.
    Having said that, I have been in the Federal Government 
before but have not been for several years. Now I am back in 
and have been in my current position for all of 3 weeks today, 
so I have not yet had a chance to examine the current state of 
the terrorism law or what the pending bills that came out of 
the House and Senate and, I guess, are ready for conference at 
this point actually include in the way of legislation that 
would protect livestock and the agricultural supply. So with 
that, I would be happy to get back to you on that point.
    Senator Akaka. You can provide it for our record, 
please.\1\ Thank you.
---------------------------------------------------------------------------
    \1\ Letter from the U.S. Department of Justice responding to 
question posed by Senator Akaka to Ms. Daniels, dated June 25, 2002, 
appears in the Appendix on page 176.
---------------------------------------------------------------------------
    Ms. Daniels. Thank you.
    Senator Akaka. Mr. Brown.
    Mr. Brown. Yes, sir?
    Senator Akaka. FEMA uses the Federal Response Plan to 
coordinate the government response to disaster or emergency 
situations, and we have been alluding now to coordination 
between agencies. This plan contains 12 emergency support 
functions to mobilize Federal resources and conduct activities 
to augment State and local response efforts. My bill would 
create an emergency support function for disasters affecting 
agricultural production of the food supply, which currently 
does not exist.
    Could you explain the procedure for creating an emergency 
support function? The USDA currently leads the response to 
production agriculture disasters. What agencies do you see 
filling a support role?
    Mr. Brown. Let me answer it this way, Senator. The first 
thing we can do is, if there is somebody else that needs to be 
a part of the emergency support team during a disaster or a 
declaration, we will just add those. I mean, we will rely upon 
the willingness of other agencies to come in and help support 
our response, which we have seen an overwhelming desire to do 
that. So if we see a need that is not being filled that we need 
some coordination on, I am certain that the Director can call 
any of the secretaries or other directors and say, we need that 
support team here on 24/7 and they will be there.
    In terms of others that we need, I guess the best analogy 
is the working group that has been meeting since September 11. 
We have brought in different groups at different times based 
upon the particular issue. There is a group today that is going 
to meet this afternoon that we are going to bring in the 
Department of Energy and EPA where they were not involved 
before, but because of some particular issues we need to 
address, we are bringing them in.
    So I think the way it has been occurring is on an ad hoc 
basis. As we need them, they come in, and they do and they 
support us.
    Mr. Hinton. Senator Akaka, could I jump in there for just a 
second with a comment, and it piggybacks on Senator Lieberman's 
comment, too, and it deals with threat assessments that we have 
been seeing in the government that are ongoing. We have some 
agencies doing multiple assessments to look at the impact on 
public health. We have the FBI looking at what might be the 
more likely attack that we are going to have. And then we have 
a few others going on.
    We also have some other agencies who have not been involved 
in some of the discussions about threat, for example, some of 
the transportation, agriculture, and the others that you are 
mentioning there, and I think that goes right to your question 
there. Unless they are an active player, they may not be 
brought in early on in that process and I think that is an 
important step that needs to get some consideration in this 
environment that we are in.
    Mr. Brown. Senator, if I could just add, I just spoke to 
one of my experts behind me also who tells me that just last 
week, Emergency Support Function 11, which is the food support 
function within FEMA, has asked for the Department of 
Agriculture and USDA to come in to deal with some issues that 
have already arisen that you have alluded to. So we are already 
doing that.
    Senator Akaka. Now that you have mentioned them, you did 
not mention the Department of Transportation on the list that 
you just mentioned and I feel that the importance of 
transportation restrictions and private industry abiding by 
those restrictions cannot be over emphasized.
    Mr. Brown. Right, and the Department of Transportation is 
already one of our support functions in that group. They 
already exist.
    Chairman Lieberman. Thanks, sir. Very thoughtful questions, 
Senator Akaka.
    I just have one additional question for Dr. Johnson-
Winegar. Obviously, the Defense Department has spent a lot of 
time and money working on these problems with chemical and 
biological components to war fighting, and now we are at a 
point where we have got to begin to think about the same 
threats here at home. The obvious interest that we have is to 
make sure that we do not put civilian agencies into a position 
of reinventing the wheel.
    I know we are in open session, but I wonder, to the extent 
that you can here, Doctor, if you would describe for us some of 
the types of technologies and ongoing research that DOD 
possesses or is overseeing that would be transferrable or 
applicable to the civilian sector, and then what is the process 
to make sure now that that happens?
    Dr. Johnson-Winegar. Certainly. Thank you for the 
opportunity to describe some of our programs.
    As Secretary Thompson mentioned this morning, clearly, the 
area of medical countermeasures, both prophylactic and 
treatment, for biological agents has been one that the 
Department of Defense has invested in for a long time. I am 
very happy about the collaboration between our two departments 
on a new anthrax vaccine, for example. The current vaccine 
requires six doses for full immunization and we have pooled our 
resources and expertise to look at recombinant technology to 
come up with a new product. So that is clearly an example of 
one where the Department of Defense and the civilian community 
can share in some of the technology that is ongoing.
    Beyond the area of specific medical countermeasures, we 
could talk about the detector systems, biological and chemical 
agent detector systems. And while we have a very well-defined 
concept of operations for using those detectors on the 
battlefield and can, indeed, when the detectors give an alarm 
or an alert, can order our military troops to don their 
protective equipment, the protective masks and individual 
clothing, certainly, the technologies that we have worked on, 
and again, in conjunction with other work that is being done in 
the Department of Energy and other organizations, can look at 
those technologies for detection and identification of chemical 
and biological agents.
    The whole area of protection, collective protection for 
buildings, individual protection, I think the Department of 
Defense has been the leader in developing a number of those 
technologies and we are certainly ready and willing to work 
with the civilian sector to see which of those can transfer 
immediately and which may require some type of modification to 
meet the specific needs of the civilian community.
    Chairman Lieberman. Is some of the detection equipment you 
described in use now as we respond to this anthrax attack or 
series of attacks?
    Dr. Johnson-Winegar. Well, I would like to differentiate 
between detection equipment and identification equipment.
    Chairman Lieberman. Yes.
    Dr. Johnson-Winegar. And specifically, some of the test 
kits that are being used for the identification are, indeed, 
those that have been developed by Department of Defense funding 
in our research and development programs and those are some of 
the little immunoassay tickets, and our laboratories have been 
participating with CDC and other labs in identification using 
PCR technology and other technologies.
    When I was speaking specifically of detectors, I was 
referring to those things, for example, which can continuously 
collect air samples and then can be periodically analyzed for 
the presence of a biological agent.
    Chairman Lieberman. At this point, those are not being 
distributed throughout the country, but obviously that is one 
potential if there began to be concern that there was a 
biological threat in some area.
    Dr. Johnson-Winegar. Yes.
    Chairman Lieberman. Are you confident that the interaction 
between the Department of Defense and the civilian agencies is 
adequate to guarantee that they have a comprehensive idea of 
what capacities you have and, therefore, are more able to use 
them to confront the threats here at home now?
    Dr. Johnson-Winegar. I certainly think that while I would 
not say that we are 100 percent of the way to solving that 
communication and information exchange, I think that we are in 
pretty good shape and that we have made a number of attempts to 
publicize the information about what is available, and as I 
said, it is a matter of making those decisions about which is 
automatically transferrable and can be used as is, if you will, 
and those things which may require some type of adaptation or 
modification. And an example of that might be the protective 
masks, and I know there was a lot of concern amongst the public 
about the need to purchase individual protective masks and we 
certainly do not recommend that from a Department of Defense 
point of view.
    But the technologies and the understanding that we have in 
how those work and, for example, we have the specialized 
laboratories and expertise where we can do the testing with 
real chemical and biological agents where many of our civilian 
counterpart agencies do not have those containment laboratories 
or do not have the personnel who are trained and qualified to 
work with the real pathogens and the chemical agents to do that 
testing. And through the interagency board and a number of the 
other interdepartmental groups, that is one of the things that 
we are bringing to the table, is our ability to do that type of 
work.
    Chairman Lieberman. Good. Mr. Hinton, did you have a last 
word you wanted to offer?
    Mr. Hinton. I was just going to say, one of the leadership 
functions that we recommended be part of the focal point in 
Governor Ridge's office would be the oversight of Federal 
research and development activities, also.
    Chairman Lieberman. Absolutely. It was a good 
recommendation and we included it in our bill.
    I want to move on so I can let Mr. McConnell testify and 
then return safely and in a timely way to Atlanta.
    I want to thank all of you for what you are doing and for 
your testimony today, which has been very helpful to the 
Committee, and I hope reassuring to the public insofar as they 
are watching. Thank you.
    The final panel this morning--Senator Akaka, thanks for 
hanging in there with me--Dr. Maureen Dempsey, Director, 
Missouri Department of Health and Senior Services; Dr. Margaret 
Hamburg, Vice President for Biological Programs, Nuclear Threat 
Initiative; and Dr. Amy Smithson, Senior Associate of the Henry 
L. Stimson Center.
    I thank all of you, and with the permission of the other 
panelists, or even without it, for that matter, I am going to 
call Mr. McConnell to testify first. Mr. McConnell is the 
Director of the Georgia Emergency Management Agency and is here 
on behalf of the National Emergency Management Agency.
    Again, to pose too simplistically the general question that 
is before the Committee, in addition to all the expertise all 
of you bring to this, we want to know whether the Federal 
Government, working together with State and local governments, 
is adequately organized to meet the now-real threat of chemical 
and biological attack.
    Mr. McConnell, thanks for being here.

TESTIMONY OF GARY W. McCONNELL,\1\ DIRECTOR, GEORGIA EMERGENCY 
    MANAGEMENT AGENCY, ON BEHALF OF THE NATIONAL EMERGENCY 
                     MANAGEMENT ASSOCIATION

    Mr. McConnell. Mr. Chairman, I appreciate the opportunity 
to be here, and let me tell you a little bit about where I am 
coming from. I am more into the yes and no answers, so let me 
give myself a little room to get out of this.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McConnell appears in the Appendix 
on page 132.
---------------------------------------------------------------------------
    Chairman Lieberman. OK.
    Mr. McConnell. I have been the Director of Emergency 
Management in Georgia for the past 11 years. We have had 16 
Presidential disasters. I was also the coordinator for then-
Governor Miller to prepare for and respond to and pull off the 
1996 games, and before that, I was a county sheriff for 22 
years, so I am more into the yes or no answers, sir, so please 
forgive me.
    Chairman Lieberman. Yes, Sheriff. All right.
    Mr. McConnell. Are we prepared? We are better prepared than 
we were 3 years ago. Are we where we should be? Probably not. 
There is a lot of Federal agencies doing a lot of good stuff 
and the States are very appreciative of that. Most of my 
comments today will be from my experience, and you have the 
written testimony from NEMA, so please do not hold that against 
the other group other than myself.
    I certainly hope we do not reinvent the wheel. Justice has 
some great programs. FEMA has some good programs. DOD has some 
very good programs. But let us not start from ground zero.
    Let us understand that when DOD talks about, with all due 
respect, to having equipment that can tell you when to put on 
your mask, the first responders do not have the equipment or 
the mask, in most cases. Usually, with the exception of some 
Justice money, normally, the first responders, when they get 
sick, they know there is something there.
    It is certainly important to understand that the States and 
local governments want to plan with the Federal Government, but 
we ask you all, please do not plan for us. There are a variety 
of issues that are different across this country, from the 
simple issues of having ports on the ocean waterfront to the 
State of Kansas that does not have much interest in port 
authority issues.
    How can we do it better? I think I have heard a lot of 
questions this morning about who is in charge, and we heard 
that a lot in 1996 with the Olympics and I have a different 
view of that. Who is responsible? Everybody is in charge. 
Everybody wants to be in charge when it is going real well. But 
who has to stand there and tell those parents or tell the 
families that their fire fighters or EMS folks or law 
enforcement did not come out of the Twin Towers or did not come 
out of Centennial Park? That is when you decide who is 
responsible, Mr. Chairman.
    We think that State and local governments are responsible. 
I know if it happens in Atlanta, Georgia, this afternoon, I 
know who Governor Barnes is going to hold responsible for it. I 
do not have a problem with that. But I do have a problem with 
everybody being in charge and nobody being responsible.
    The assistance coming from the Federal Government is great. 
I have been doing this now for about 30-odd years and some of 
these issues we have been talking about for quite some time. 
Terrorism is certainly different. It is on the front burner 
today. But a lot of the responses, just as the gentleman from 
the Budget Office mentioned, are also applicable to a number of 
disasters and emergencies--communications, command and control, 
unified command. The last thing we need is 46 or 50 or whatever 
number you want to use of State and Federal agencies showing up 
and having to decide in the parking lot who is responsible for 
what, and that actually happens, sir.
    Chairman Lieberman. You have seen that happen?
    Mr. McConnell. I saw a fistfight in downtown Atlanta, 
Georgia, in 1996 when we had the Olympic park bombing, between 
two Federal agencies deciding who was in charge----
    Chairman Lieberman. Right.
    Mr. McConnell [continuing]. And we decided that I was 
because I outweighed both of them. [Laughter.]
    That is to the point that we need to get on with it, sir. I 
am sure that the new Office of Homeland Security or Homeland 
Defense is certainly a step in the right direction, but let me 
encourage you to think about three or four things as we move 
forward.
    Chairman Lieberman. Please.
    Mr. McConnell. Please do not stovepipe all the Federal 
resources. Right now, for example, the Department of Energy, 
Federal Emergency Management, DOD, and two or three others deal 
with hazardous materials and biological chemicals. Now we get 
money from the Federal Government to do certain things with 
that, but we are not allowed to use DOE money, for example, to 
train people not on the DOE transportation routes. Even though 
it is the same training it would need somewhere else.
    Please understand that a simple thing like a background 
check to have clearance to find out what is going on from five 
different Federal agencies requires five different background 
checks for me. It looks to me like DOD, FEMA, the Department of 
Energy, and whoever else should do one background check or at 
least share that information, not only the cost savings to the 
Federal Government but also getting the information to the 
folks that need to know.
    There is an information void. I am not sure whether the 
information is available or we may not be on a need-to-know 
list or how to arrive at--information sharing is a two-way 
street, Mr. Chairman. A lot of times, the local responders or 
the State may know more about what is going on in that local 
jurisdiction than the Federal authorities, so we certainly need 
to have a clear path of how to pass that information on and to 
who. There also needs to be a clear understanding of how the 
information is coming back to us.
    So very honestly, as an old country sheriff, most all 
politics is local and most all disasters and most all terrorism 
is local. The Federal Government has a great response 
capability and it is going to be there in about 3 days, with no 
disrespect.
    Chairman Lieberman. Understood.
    Mr. McConnell. Your local fire, EMS, and your State folks 
are going to be there for 2 to 3 days before you get Federal 
assistance, and I am not trying to be ugly to the Federal 
counterparts, please understand.
    One of the things that I did not hear this morning when we 
were talking about monitoring disease from Secretary Thompson 
is looking at the possibility of monitoring 911 calls as they 
come in as a faster way of knowing what is going on with 
diseases. Certainly it is more accurate to get it from a 
medical professional, but if you have a tremendous increase in 
calls for 911 service in Georgia and Ohio, there might be some 
connection for that. So as we gather that information on 
biological and chemical weapons and certainly a variety of 
diseases, let us look at the possibility of gathering that from 
the 911 system.
    Chairman Lieberman. That is a good idea.
    Mr. McConnell. Also, it is interesting to hear the comments 
about agriculture. One of the major concerns, I think, is the 
spread of chemical and biological on our agricultural products 
across this country. As it stands right now, if there is an 
agricultural emergency, the communities could not even recover 
under the Stafford Act because agriculture is not seen as part 
of the Federal infrastructure. So the communities, if they had 
a foot-and-mouth or hoof-and-mouth disease outbreak right now 
would not be able to recover any money through the Stafford Act 
through the FEMA process that is normally taking place. I 
encourage you to look at that.
    And I guess in closing, Mr. Chairman, there is a lot of 
resources out here. We need to make better use of those. Some 
of the things that are working very good is the National Guard-
DOD response teams, what used to be the raid teams, now the 
civil support teams, are outstanding. We have one in Atlanta. 
In the last 2 weeks, we have used it on an average of once 
every 8 or 10 hours.
    But we have also got to understand that they are spread 
very thin. Our particular team in Georgia has eight Southern 
States. If I am using it every ten hours, that means Florida 
and a lot of other States do not have access to it. We need to 
enhance that capability. We certainly need to move forward with 
the medical packs and a variety of those things.
    But another thing that has not been mentioned that we used 
both in New York and several natural disasters is mutual aid. 
Each State has a specific or has a lot of capability. We 
certainly need to look at how to federally fund that once it is 
sent from Georgia to New York or New York to California, to 
better use the State resources that are out there.
    I think we have made tremendous strides in the last 10 
years, but we have got a long way to go, sir. And with that, I 
will conclude and try to answer any questions you might have, 
sir.
    Chairman Lieberman. Thanks, Mr. McConnell. That was 
excellent.
    Maybe I will ask you a question or two and then ask my 
colleagues if they have any, and I apologize to the other panel 
members, and let you go and run and catch the plane.
    But I thought what you said about the response organization 
was critical. We had heard the testimony before that there is a 
Federal Response Plan and that, presumably, FEMA is in charge. 
But my concern is, and you have illustrated it here, is that 
when there is a crisis, it really is not clear who is in 
charge. So if you had a crisis of the kind we are talking about 
now in Georgia, would it be clear to you who was in charge?
    Mr. McConnell. Without a doubt, Senator.
    Chairman Lieberman. Who would that be?
    Mr. McConnell. It would be my governor and myself.
    Chairman Lieberman. Amen. But not----
    Mr. McConnell. We look at the Federal response as support 
to us.
    Chairman Lieberman. Right. They would be, in a sense, 
working at your direction. Do they see it that way?
    Mr. McConnell. Normally, yes, sir.
    Chairman Lieberman. They do?
    Mr. McConnell. Not always when it first starts. We have a 
way of delivering that message, sir.
    Chairman Lieberman. Yes.
    Mr. McConnell. But in all seriousness, it has got to be a 
partnership. They have certain expertise. They bring a lot of 
resources to the table. But you have also got to remember that 
they are going to get on--locals feel the same way about the 
State, that once it is over, they are going to be gone and we 
are still left there to explain why we did certain things, why 
it occurred that why and why it did not occur that way, and the 
same thing will happen in New York eventually, just the same as 
with any other natural disaster. It has got to be well 
coordinated between the State, the local, the Feds certainly 
play a major role. But I think the ultimate decision on how to 
respond to it in a State has got to lie in the governor's 
office, sir.
    Chairman Lieberman. I do not want you to name names or 
agencies, but just going back to that argument or fistfight 
that you described in 1996, was that between people at the 
Federal level or was it Federal and State arguing about who was 
in charge?
    Mr. McConnell. Two Federal agencies.
    Chairman Lieberman. That is what I was concerned that you 
were saying.
    A final question, which I think you answered, but I want to 
make sure I understand. As I said to the last panel, it struck 
me that we have got three or four different Federal agencies 
with programs to train and equip local responders, who as we 
all agree, are where it is going to happen. These attacks are 
going to be local and the response is going to be local.
    Is that not a problem for you in terms of even applying for 
grant money? I mean, would it not be better if it was 
concentrated in one place, because it feels as if you have got 
to shop around now.
    Mr. McConnell. It would be better from one aspect if you 
could have a broader base to use the funds for. We do not mind 
chasing the funds in different agencies, but we do have a 
problem, for example, if you have Department of Energy money to 
train first responders on moving hazardous materials from the 
Savannah River plant to New Mexico and Arizona for storage, but 
you also have a need off of that corridor to train the first 
responders in the same thing and you have the expertise and the 
people on board to do that with and you are not allowed the 
flexibility to do that.
    If you do not move the money to one place, please try to 
encourage the flexibility that we can use those resources, if 
they are sitting there not busy doing their major response, to 
do DOE, for example, that we have the flexibility to use them 
somewhere else if we determine it is necessary, sir.
    Chairman Lieberman. Well said. Do either of my colleagues 
have any questions specifically for Mr. McConnell?
    Senator Akaka. Yes.
    Chairman Lieberman. Senator Akaka.
    Senator Akaka. I like your straightforward comments----
    Mr. McConnell. Thank you.
    Senator Akaka [continuing]. About being in charge and who 
is responsible. I see you recommend that all Federal programs 
and funding should go to the governor's designated single point 
of contact.
    Mr. McConnell. Yes, sir.
    Senator Akaka. You have been in emergency management for a 
while and therefore are very experienced. My question is, how 
can we assure--I am thinking of communities--how can we assure 
smaller communities that all the Federal funding will not be 
sent to one or two large urban areas?
    Mr. McConnell. I think there are two or three ways to do 
that. One is the Department of Justice now has what is called 
Byrne Grant money that has a formula that a certain percentage, 
and I am sorry, I do not remember the percentage off the top of 
my head, cannot be used for jurisdictions over 30,000 
population. It breaks down how the funding has to be passed on.
    The reason I think it ought to go to the governor's office, 
Mr. Chairman, is that way you will have some central point to 
know where the resources are in case you do have an emergency 
or an event, that now, unless you happen to ask the right 
person, you may not know that a particular community in your 
State has got a Federal grant to do something with unless you 
just heard about it by the grapevine.
    But there is already a process in place, I known with the 
Byrne Grant money for law enforcement, that breaks it out into 
populations where you have to put a certain percentage of the 
money in certain jurisdictions, or not to certain 
jurisdictions, but certain sized jurisdictions, sir.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much.
    Mr. McConnell, good luck in catching your plane. Thanks for 
the job you do in Georgia and thanks for your testimony today.
    Mr. McConnell. Thank you.
    Chairman Lieberman. Thanks to the three remaining 
panelists. It is too bad, in some ways, that we cannot do this 
on another day, because you are each superb witnesses, but we 
are here and so is C-SPAN, so there are people who are going to 
be watching and listening and being affected by it.
    Dr. Dempsey, you were previously quite well introduced by 
Senator Carnahan, so it is nice to have you and I look forward 
to your testimony now.

 TESTIMONY OF MAUREEN E. DEMPSEY, M.D., F.A.A.P.,\1\ DIRECTOR, 
       MISSOURI DEPARTMENT OF HEALTH AND SENIOR SERVICES

    Dr. Dempsey. Thank you, Mr. Chairman, and good afternoon. I 
would like to thank my Missouri Senator, Jean Carnahan, for 
initiating discussions about my opportunity to testify here 
today. It is an honor to be here and I am happy to talk about 
preparedness.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Dempsey appears in the Appendix 
on page 143.
---------------------------------------------------------------------------
    I would briefly like to discuss the foundation that we have 
established in Missouri with the Department of Health and 
Senior Services with regard to bioterrorism preparedness and 
then use that as a basis for several issues that I would like 
to put forth for consideration.
    We have been consistently planning over the last decade in 
Missouri with regard to strengthening the public health 
infrastructure, which is now the topic of the day. We wish it 
could have started 10 years ago in better times and would have 
addressed, I believe, our under-preparedness to a great degree.
    We have utilized that planning to think strategically about 
our workforce, about how we carry out our roles and 
responsibilities, and how we plan for the future while taking 
care of our day-to-day business. As an outgrowth of that 
planning, we began to think about bioterrorism preparedness 
several years ago as a component of that planning and began to 
move our workforce around internally.
    Despite that, we felt that we were not able to achieve an 
adequate focus on bioterrorism preparedness, so in May 2000, we 
created a bioterrorism preparedness unit within my office and 
have staffed it with a medical epidemiologist and an emergency 
coordinator. Because it is placed in my office, they therefore 
have the entire resources of the Department at their disposal, 
which includes our State epidemiologists and our CDC EIS 
officer and a host of other individuals who are responsible for 
communicable disease preparedness.
    They have been tasked with the oversight of 12 work groups 
to look at many of the areas that were highlighted in Denver's 
TOPOFF exercise and our own State preparedness planning for a 
pandemic, influenza training that we had several years ago. We 
looked at areas such as mass prophylaxis, mass casualties, 
information systems, training of the media, building those 
partnerships and identifying the steps that needed to be put in 
place in order to effectively deal with an event should one 
occur.
    We have also participated in the active development of the 
HAN Network, the Health Alert Network, and do have a capability 
to communicate rapidly with all of our 114 local public health 
agencies, either via E-mail or fax, and are currently working 
on other modes of communication should they fail, as they did 
on September 11.
    In addition, since September 11, we have had in place--
begun to put in place an active surveillance system so that we 
can more rapidly detect unusual events, clusters of diseases, 
or aberrant trends in diseases. This is in addition to our 
usual disease surveillance systems that have been in place, 
like many other States have at their disposal.
    We have instituted it currently with over 1,100 providers 
across the State, including sentinel hospitals, physicians, 
federally-qualified health centers, day care centers, schools, 
and a host of other sites.
    Chairman Lieberman. How does it work?
    Dr. Dempsey. Currently, we are utilizing a syndromic list 
of signs and symptoms that we are tabulating on a three times a 
week basis with those sites, active phone calls going from our 
staff that we have reassigned to those sentinel locations to 
tally on a regular basis what they are actually seeing at those 
locations so that we have an ability to have an early warning 
of any unusual trend.
    If we would see an unusual trend as evaluated by our 
epidemiologist and analyst, we would then initiate an 
epidemiologic investigation to determine whether or not it is a 
manmade event or something unusual.
    Chairman Lieberman. Please go ahead.
    Dr. Dempsey. In addition, we have had conversations with 
the Missouri Hospital Association and with our hospitals across 
the State to tap into the emergency rooms and the urgent care 
centers and some of our primary care providers across the 
State, as well, in order to achieve the same type of data 
surveillance on an active basis. We are looking at ways of 
doing that rapidly. Currently, there are resource constraints 
and personnel constraints in those hospitals that are somewhat 
making that a difficulty to rapidly implement, although we are 
looking at other mechanisms to gather that data on a very rapid 
basis and believe within the next several weeks we can begin to 
have that data available, as well.
    Having said that, I will say that I think there are several 
areas within that public health infrastructure that we still 
need to support. We have heard a lot about State 
epidemiologists today and the ability to have CDC-trained 
individuals available to all States. We have that luxury in 
Missouri, and yet I do not believe that capacity will be 
adequate to meet our needs, or probably any other State's 
needs. We need additional individuals who can do the outbreak 
investigation. Currently, our folks who are doing the 
investigations are the same folks who are refining our plans 
and doing a host of other activities within the State.
    In the flurry of the anthrax threats that have been 
occurring in Missouri, as they have elsewhere, those resources 
are strained and we need additional individuals who are highly 
trained, ready to go in at a moment's notice to ask specific 
questions, detailed questions, establish case identification, 
and then move on to establishing are other people affected and 
to what extent.
    We also have a concern about that rapid response, and 
Chairman Akaka had a good question about who is in charge when 
you have an unusual event and is it a law enforcement or a 
public health lead agency at the time of that event, and I 
would argue that it is both, and that is true for us in 
Missouri, as we found out this last weekend.
    There are two issues. One, as long as it is anthrax, I 
could say very easily, public health could handle that. But we 
do not know at the time the event is unfolding if, indeed, it 
is anthrax, and there are several considerations that need to 
be put in place. If it is a bioterrorism event, it would 
require a criminal investigation to be opened.
    We currently, since October 1999, have had a relationship 
with the FBI and had a protocol in place in Missouri and have 
tested specimens for them during that 2-year period under that 
protocol. It has worked very effectively. They establish 
whether or not there is a credible threat. We do the testing 
for them after they have assured us that there is no chemical 
or radiological event that is unfolding, or if it is a package, 
that it is not an explosive device. All of those activities 
must occur before those specimens can be sent to the State 
public health lab, so it must be a dual responsibility at the 
outset of the event until the substance or agent or device, if 
you will, is properly identified.
    As we found out this last weekend, when those resources are 
strained, we had to modify our protocol and are now utilizing a 
similar protocol for our local law enforcement agencies and are 
asking them to conduct an initial investigation in concert with 
public health, both local and State individuals. We feel that 
this is critical in order to protect the folks who are 
responding as first responders, as well as to preserve evidence 
and to assure that any public health threat outside of anthrax 
would properly be identified.
    In addition to our workforce, equipment, and information 
systems, we believe that our Federal partners need to be 
adequately trained with adequate resources. They are our 
backup. They are the individuals we call when we need 
additional field investigation or technical assistance, 
additional expertise and knowledge that may not be available at 
the State level.
    With regard to the training of emergency personnel, first 
responders, I would also like to echo other comments from today 
that those training dollars need to be coordinated across 
multiple agencies within the State, and I would often argue 
that the State agency or the State entities involved in that 
State responsibility, which may differ from State to State, 
should be involved in some capacity in the planning for those 
educational dollars.
    For example, independent agencies who do not have knowledge 
of governmental roles and responsibilities with regard to 
public health cannot adequately train our medical providers on 
what that response system is unless they understand the 
response system and where the authority lies within the State 
to call up additional State or Federal resources.
    The same is true for our law enforcement individuals. Those 
dollars often are coming down. I am not aware of them. We are 
not involved in that training. And our exercises of this past 
weekend and the last few days have shown us that I cannot give 
certain advice to law enforcement agencies, and when we train 
only within disciplines, I am missing critical information 
about how I help them respond appropriately during an event 
that I may take as lead and how they can assist me so that I 
can do my job more effectively as a public health individual.
    A lot more cross-training from the State, Federal, and 
local level really needs to occur. Those critical roles and 
responsibilities are very difficult to establish in times of 
confusion and high energy and high concern. One of the things 
that having the protocol with the FBI in advance allowed us to 
fix our situation in Missouri very rapidly because our roles 
and responsibilities had been clearly defined.
    We also believe that we need responsive teams available 24 
hours a day, 7 days a week. We have a system available to do 
that. Many States do not. Many of our local public health 
agencies do not. But those teams need to be broad-based and 
supported.
    We have inadequate resources for mass casualties in our 
State. Most of our hospitals have an inventory that is ``just 
in time.'' They can barely meet their daily needs and will not 
be able to gear up for a large influx of ill or injured 
individuals.
    Mental health capacity and funding for dealing with the 
immediate and long-term consequences of a catastrophic or 
terroristic event are currently unknown and untapped, I 
believe.
    Our laboratories need to be increased in capacity. We need 
highly-trained individuals and they need to be staffed. We say 
at the public health level, I do not have reserves to call up. 
I do not have a Public Health Guard. We do not have time to 
train highly-skilled individuals in a very short time and need 
to assure that we are prepared in advance and adequately 
staffed.
    With regard to dealing with the public, we would like to be 
able to speak with one voice and assure that we have adequate 
educational campaigns to address the public. They need to be 
comfortable with our credibility and know that our information 
is accurate and timely. If there were an event that we would 
need to assure there was no secondary transmission or 
quarantine and evacuate, we would need them to trust us and to 
listen to us immediately and respond. We believe that needs to 
be established in advance.
    I have one final area that I would like to address that 
goes well beyond the vaccine for smallpox and anthrax and I 
think that we have a national tragedy in that we can currently 
not protect our population against many usual diseases that are 
not of terroristic origin. Influenza is a prime example. We 
currently also have a shortage of tetanus vaccine. Most of our 
current supply in Missouri was sent to New York and we have not 
been routinely administering the boosters to adolescents for 
several months, not only in Missouri, but across the country. 
We have recently been notified there may be shortages of 
childhood vaccines.
    It is impossible to adequately protect our populations 
currently, and our vaccine supply and distribution system 
really needs to be examined and perhaps overhauled. We would 
request that we could have a rational national vaccine policy 
to help us deal with this issue and protect our population so 
they are not vulnerable to manmade or natural threats. Thank 
you.
    Chairman Lieberman. Thank you, Dr. Dempsey. Excellent 
testimony. Your State is lucky to have you. I would guess that 
some of the programs you described do not exist in many other 
States, certainly the preparedness for bioterrorism. Am I 
correct in that?
    Dr. Dempsey. I do not know the extent of that preparedness. 
I know that the degree of preparedness is fairly high in 
Missouri and many other States are enacting very similar types 
of activities and units.
    Chairman Lieberman. Excellent. Thanks.
    Dr. Hamburg, thanks for being here. It is good to see you 
again.

 TESTIMONY OF MARGARET A. HAMBURG,\1\ M.D., VICE PRESIDENT FOR 
         BIOLOGICAL PROGRAMS, NUCLEAR THREAT INITIATIVE

    Dr. Hamburg. Thank you very much for your leadership on 
this important issue. It could not come at a more important 
time. I think today we are all painfully aware of our Nation's 
vulnerability to terrorism, including bioterrorism, and whether 
it is an unsophisticated delivery system with a limited number 
of exposures, as we have been seeing in recent days with the 
anthrax situation, or the potential of a more high-tech mass 
casualty attack, the prospects are certainly frightening, and 
today, no one is complacent any longer about this biological 
threat.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Hamburg appears in the Appendix 
on page 152.
---------------------------------------------------------------------------
    While there are many challenges, we do know a great deal 
about what needs to be done and how to do it. Improving the 
national response to bioterrorism must involve a comprehensive 
and coordinated plan. From a public health and medical 
perspective, several key elements must be strongly present, and 
you just heard a good recitation.
    But perhaps first and foremost is prevention, efforts to 
reduce the likelihood that dangerous pathogens will be acquired 
or used by those who want to do harm.
    Second, strengthening the public health infrastructure, our 
ability to rapidly detect, investigate, and respond to 
outbreaks of disease, enhancing medical care capacity to be 
able to surge in response to a large-scale event.
    The National Pharmaceutical Stockpile that Secretary 
Thompson talked about this morning is essential to ensure that 
necessary drugs or vaccines can rapidly get where they are 
needed.
    And we also need research, perhaps right now most urgently 
to improve detectors and diagnostics, along with better 
vaccines and new medications, and we also need to make sure 
that we bring to bear all available scientific knowledge and 
technology on the problems before us, that we translate what we 
know into action, and whether it is the development of the 
second generation anthrax vaccine or the implementation of new 
standards for ventilation systems, we still have opportunities 
to actually put in place a number of things that we know.
    There are programs across the domains I just talked about 
that have been initiated in recent years. The bioterrorism 
preparedness activities are not just in Missouri. CDC has 
sponsored programs across the 50 States, but many of those 
programs need to be strengthened, need to be extended, and 
there are still many programs and policies that need to be 
developed and implemented.
    And really, until recently, the importance of these kinds 
of programs in our overall efforts to protect national security 
and prepare against the threat of terrorism have been under-
appreciated and under-funded and I think we really have an 
important opportunity at this moment to change that situation 
in positive ways.
    So how big is the gap between the threat and our ability to 
respond? I was asked by your staff to briefly discuss the Dark 
Winter exercise, a recent bioterrorism war game involving the 
intentional release of smallpox. Although a simulation of a 
worst-case scenario, it powerfully conveyed the distinctive and 
sobering features of a potential bioterrorist attack and 
helped, I think, to spotlight vulnerabilities that we must 
urgently address.
    Chairman Lieberman. For the record, why do you not indicate 
under whose auspices Dark Winter occurred.
    Dr. Hamburg. OK. It was created by the Johns Hopkins Center 
for Civilian Bio Defense, along with the Answer Institute for 
Homeland Security and CSIS, the Center for Strategic and 
International Studies. It was played out at Andrews Air Force 
Base in late June of this year and it involved a simulation of 
a series of National Security Council meetings and the 
participants were all individuals who had served in government, 
many in cabinet or sub-cabinet roles, and I played the 
Secretary of Health and Human Services.
    Over a 24-hour period, this game went forward, but it 
actually represented a 3-week simulation of a bioterrorist 
event. In the opening minutes of the exercise, we learned that 
cases of smallpox had just been diagnosed by the Federal 
Centers for Disease Control. Given the propensity of this 
disease to spread person-to-person, its 30 percent fatality 
rate, and the limited supply of smallpox vaccine, it was not 
surprising that we were soon dealing with an epidemic of 
devastating, if not catastrophic potential.
    Smallpox has an incubation period of 7 to 21 days, and as 
the exercise began, we did not know when the attack had 
occurred or where. We had no way to understand the full scope 
of the crisis we were facing. How many cases were there? How 
many more cases could we expect? When and where did the first 
infections take place? Who released it? Did we have enough 
vaccine and could we obtain more?
    We did not know it at the time, but there actually were 
three simultaneous attacks that had taken place 9 days earlier. 
Terrorists had silently released smallpox in three shopping 
malls at the start of the Christmas shopping season, and 
although the releases were variably effective, some 3,000 
people turned out to have been infected by these initial 
exposures.
    To contain a smallpox epidemic, there are two primary 
tools: Isolation of cases and protective vaccination of those 
exposed. Most of the available vaccine was distributed early on 
in an effort to protect key health care workers and other 
critical responders, to protect a fraction of our military, and 
most importantly, to try and put a ring of immunity around the 
smallpox cases that were being reported, and as you heard this 
morning, we only, as a Nation, have enough smallpox vaccine for 
about 1 in 23 Americans.
    But from the beginning, the strategy for smallpox control 
was limited because of the large numbers of people initially 
infected, the contagiousness of smallpox, and our limitations 
on vaccine supplies. Accelerated production of new vaccine was 
ordered by the President, and the Secretary of State was asked 
to try to find surplus stocks from other countries, but this 
was doubtful in the face of a smallpox epidemic that was likely 
to quickly become global in nature.
    Over the course of days, vaccine started to run out and we 
had to contemplate measures considered draconian by modern 
standards, including enforced isolation of contact and 
restrictions on travel. We also had to address logistical 
concerns, such as getting food and other essential supplies to 
affected areas in the face of these restrictions. And these 
problems were exacerbated by the fact that, by this point, we 
could no longer provide vaccine to essential providers.
    As the exercise progressed, we started to see what appeared 
to be secondary infections, although we could not be 100 
percent certain that we were simply seeing secondary cases or 
if we were seeing a subsequent attack. Because of the person-
to-person spread, epidemiologic models predicted that without 
effective intervention, every 2 to 3 weeks, the number of cases 
would increase roughly 10-fold. So we were looking at three 
million cases in 2 months if we did not stop the waves of 
follow-on infections.
    At the conclusion of the exercise, the epidemic had spread 
to 25 States and 10 foreign countries. Civil disorder was 
erupting sporadically around the Nation. Interstate commerce 
had ceased in large areas of the country. Financial markets had 
suspended trading. We were out of vaccine and we were using 
isolation as the primary means of disease control.
    So you can see, for the participants, this exercise was 
filled with many difficult dilemmas and unpleasant insights. I 
want to stress again that this is, of course, a worst case 
scenario and it was really designed to help surface some of the 
critical issues in terms of how we think about a bioterrorist 
threat, how we organize systems to respond, and what are some 
of the critical gaps that we need as a Nation to address.
    So some of the key lessons learned included, first, that we 
really need to focus more attention, concern, and resources on 
the specific threat of bioterrorism, understanding that it is 
different from the other threats we face, that it will unfold 
as a disease epidemic over time, potentially with waves of 
infection and disease as opposed to the kind of attack we saw 
on September 11, where, while devastating, it was confined in 
both time and geography.
    Critically, we need to recognize the central role of public 
health and medicine in this effort and engage them fully as 
true partners. We must act on the understanding that public 
health is an important pillar of our national security 
framework.
    Public health takes place, of course, at the local, State, 
and national level, and we have to recognize that and support 
capacity at all those levels, as well as integration. We need 
to increase the core capacities of our Public Health System to 
detect, track, and contain epidemics by providing resources for 
effective surveillance systems, including the kind of real-time 
data collection and analysis strategies that were mentioned by 
Dr. Dempsey and by Mr. McConnell.
    We need diagnostic laboratory facilities to support these 
efforts and effective communication links to other elements of 
the response. This must include a reexamination and 
modernization of the legal framework for epidemic control 
measures, and we must recognize the need to fully bring in and 
work with new partners, both within health, veterinary 
medicine, and agriculture, as we heard earlier, and also the 
importance of law enforcement in this kind of a context.
    We also need to develop plans for a surge of patients in 
the Nation's hospitals. This will require careful advance 
planning, since most hospitals are operating at or near 
capacity now.
    Mr. McConnell mentioned the Stafford Act as it related to 
agriculture, and I also think that if you are looking into 
that, some of those same uncertainties about reimbursement 
exist for voluntary and private hospitals in the event of 
response to a national disaster.
    Related to this is the National Pharmaceutical Stockpile, 
which should be built to capacity, including extra production 
capability for drugs and vaccines with heightened security at 
the various storage and dispersal sites. It will also be 
necessary to increase funding for biomedical research to 
develop new vaccines, new therapeutic drugs, and new rapid 
diagnostic tests for bioweapon agents.
    In a broader sense, we need to identify and put into 
practice the mechanisms by which all levels of government and 
all relevant agencies in government will interact and work 
together. These responses, as just mentioned, are cross-
disciplinary and must cross agency lines. We must understand 
our differing roles, responsibilities, capabilities, and 
authorities and continue to plan and practice how to work 
together before an act of terrorism occurs.
    We should also build on systems that are used routinely to 
the greatest degree possible so that we are not trying things 
out for the first time in the event of a crisis, whether it is 
HAZMAT teams that will be relevant in case of a chemical attack 
or disease surveillance and public health systems for a 
bioterrorism attack.
    Similarly, there should be a clear plan for providing the 
news media with timely and accurate information to help save 
lives and prevent panic, and I think we have seen the 
importance of that in recent days.
    Finally, measures that will deter or prevent bioterrorism 
will be the most beneficial means to counter these threats to 
public health and social order. We need to prevent the 
proliferation of biological weapons, in part by strengthening 
intelligence gathering about such threats, but also by 
providing peaceful research options to former bioweapons 
scientists in the former Soviet Union and securing their 
biologic materials. In addition, we need to encourage the 
scientific community to confront the potential misapplication 
of modern biological research and help them devise systems and 
practices that ensure secure access to dangerous pathogens for 
legitimate use only.
    So in conclusion, let me reemphasize that a sound strategy 
for addressing bioterrorism will need to be quite different 
from those that target other terrorist acts. While a larger-
scale event likely remains a low probability, the high 
consequence implications of bioterrorism place it in a special 
category that requires immediate and comprehensive action.
    Yet as we move forward to address this disturbing new 
threat, it is heartening to recognize that the investments we 
make to strengthen the public health infrastructure, to develop 
new drugs and vaccines and assure their availability, to 
improve medical consequence management, and to support 
fundamental and applied research will also benefit our efforts 
to protect the health and safety of the public from naturally 
occurring disease, be it flu or food poisoning.
    So again, I appreciate your efforts on these important 
topics and would be happy to answer any questions you may have.
    Chairman Lieberman. Thanks. That is a very good point at 
the end, also, about the connection to more traditional public 
health threats.
    Dr. Smithson, nice to see you here in person. I have seen 
you a few times on television in recent weeks.
    Ms. Smithson. That is not my normal shtick, I assure you.
    Chairman Lieberman. Well, you do it well.
    Ms. Smithson. Thank you, sir.
    Chairman Lieberman. We will hear your testimony now.

TESTIMONY OF AMY E. SMITHSON,\1\ PH.D., DIRECTOR, CHEMICAL AND 
   BIOLOGICAL WEAPONS NONPROLIFERATION PROJECT, THE HENRY L. 
                         STIMSON CENTER

    Ms. Smithson. On September 11, this Nation suffered an 
unthinkable tragedy, particularly the family and friends of 
those who perished. In the aftermath of that horrific attack, a 
series of incidents involving anthrax have unfolded, including 
here on Capitol Hill. One American has died from anthrax, three 
have the disease, and several dozen others have been exposed to 
the agent. Over 280 million Americans are physically unharmed 
by these isolated anthrax incidents, but a great many of them 
are fearful of what might come next.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Smithson appears in the Appendix 
on page 164.
---------------------------------------------------------------------------
    No matter where one comes out in the debate about whether 
terrorists can pull off a biological attack or a chemical 
attack that causes massive casualties, the debate itself is 
moot. One need only consult public health journals to 
understand that it is only a matter of time before a strain of 
influenza as virulent as the one that swept this country in 
1918 resurfaces. You can also examine issues regarding emerging 
infectious diseases and the rise in the number of diseases 
resistant to antibiotic treatment to know that Mother Nature 
herself is a very formidable opponent.
    The fact that we now live in large population centers and 
travel with great frequency, not just in this country but 
internationally, will complicate the ability of public health 
authorities to address epidemics.
    As for the prospects of a large-scale chemical disaster, 
one needs to keep in mind what America's first responders and 
health care workers have to deal with on a routine basis. 
According to the U.S. Chemical Health and Safety Investigation 
Board, between 1987 and 1996, a hazardous chemical incident of 
some severity took place in over 95 percent of this Nation's 
counties. Every year, over 60,500 accidents and incidents with 
these chemicals occur at fixed facilities or in transit.
    Thus, there is a need for this Nation's front-line 
responders, from fire fighters, police, and paramedics to 
doctors, nurses, laboratory workers, and public health 
officials, to be prepared to cope with chemical and biological 
disasters, regardless of whether or not terrorists turn to 
these agents in the future in an attempt to cause mass 
casualties.
    The appointment of Governor Tom Ridge as the Director of 
the new Office of Homeland Security would certainly seem to be 
a constructive step that could put improved coordination and 
streamlining of the Federal response bureaucracy on a fast 
track. To aid Governor Ridge in his efforts, Congress should 
grant him czar-like budgetary authority. I will not kid you. 
Everybody that works inside the beltway knows that the real 
clout comes with control of the budgets.
    Alone, Governor Ridge will have difficulty taming the 
Federal bureaucracy, however. When I try to tally the number of 
Congressional oversight committees on Capitol Hill, I not only 
run out of fingers, I run out of toes. A consolidation of 
Congressional oversight committees is sorely needed.
    Also in order is a reassessment of the true value of 
politically popular placebo programs, like the National Guard's 
Civil Support Teams, and my remarks in this regard will differ 
from what you have heard from Mr. McConnell. I assure you I 
have no disrespect or intend no disrespect for the National 
Guard as an institution or for the fine men and women who serve 
our country in the National Guard.
    But I urge you to consider the evaluation of these teams 
offered by public safety and public health officials, including 
members of the National Guard, that I interviewed in 33 cities 
in 25 States. Their views are presented fully in ``Ataxia,'' a 
report that I co-authored with Leslie-Anne Levy and released 
last October. This report can be found on the World Wide Web at 
www.stimson.org.cwc.
    Briefly, the message from the front line about these Civil 
Support Teams is unified and clear. They have a minuscule, if 
not negative, utility in a chemical or a biological disaster, a 
point that I would be pleased to elaborate on during Q and A.
    To those accustomed to overseeing billion-dollar budgets, 
the National Guard program in this area might not seem so ill 
advised, but please consider how this program's budget could be 
put to uses that could make a real preparedness difference on 
the front lines. For example, to begin fixing the glaring lack 
of decontamination capacity in U.S. hospitals that results in 
recurrent hospital closures even after small HAZMAT incidents. 
In most of the cities that I surveyed for ``Ataxia,'' the 
central game plan for hospitals in the event of a major 
chemical catastrophe was to lock down. That means to shut their 
doors to incoming patients.
    Chairman Lieberman. Why was that?
    Ms. Smithson. Simply because in order to protect the safety 
of the patients that are already in their facility, as well as 
the safety of the workers there, physicians, nurses, etc., if 
they allow someone that is contaminated inside the premises, 
they have to close that area of the hospital down.
    For the cost of standing up one National Guard Civil 
Support Team, 2,333 hospitals or fire stations could be 
outfitted with decontamination capabilities. With the total 
1999 budget for this program, 49,800 local rescue and health 
care facilities could have been armed for decontamination. 
Civil Support Team funds, in other words, could be used to make 
a genuine preparedness difference were they applied to 
overcoming the decontamination bottleneck at U.S. hospitals.
    I am aware that proposals are now circulating for each 
State to have its own Civil Support Team. I would encourage you 
to reconsider those proposals. By all means, leave the 
resources in the States, but this is something, again, I would 
encourage you to reconsider.
    If there is no other message that you take away from my 
testimony today, let it be an understanding that the key to 
domestic preparedness lies not in bigger Federal bureaucracy 
but in getting taxpayers' dollars channeled to readiness at the 
local level, and I would like to spend a few minutes, with your 
indulgence----
    Chairman Lieberman. Please.
    Ms. Smithson [continuing]. Explaining a couple of concepts 
that I believe will be key to readiness at the local level.
    The first of these refers to something that Dr. Hamburg 
just discussed and that is how can hospitals handle a great 
surge of patients either in a chemical or a biological 
disaster? The key here appears to be a need for regional 
hospital planning. This is something that used to occur in a 
lot of our cities but no longer does because of the way that 
our health care system currently works.
    If the Federal Government provides grants to regions so 
that hospitals can get together and have a pre-agreed game plan 
about how to share burdens in these circumstances, who is going 
to remain open for what, for traumas, for maternity, for heart 
care, which hospitals would convert to care of infectious 
disease patients, these types of arrangements, including plans 
about how to prophylax a large population, how to secure 
emergency supplies, how to bring in, in the near term, before 
Federal help can arrive, reservoirs of health care personnel 
that might be nearby. All of these factors are all essential to 
the ability of hospitals to withstand the flood of patients 
they are likely to see, such that the local health care system 
does not collapse in such an event.
    Chairman Lieberman. As far as you know, none of this is 
happening now?
    Ms. Smithson. In the survey that I conducted, there were 
only a couple of cities across the country--and I was not 
everywhere, but 33 is pretty large--that were even beginning to 
attempt this type of planning.
    Chairman Lieberman. And the Federal Government is not 
requiring it, as far as you can tell?
    Ms. Smithson. This is not a requirement of the Federal 
programs as I currently understand them.
    Chairman Lieberman. OK.
    Dr. Hamburg. I think it is part of the MMRS program that 
Secretary Thompson talked about. They are trying to get cities 
receiving monies to do planning. It is not quite as required or 
comprehensive as what Amy is suggesting, though.
    Chairman Lieberman. Right.
    Ms. Smithson. She is correct. With the MMRS program, the 
difficulty has been, and also with the Domestic Preparedness 
Program, getting hospital administrators and physicians into 
the planning process because they simply do not have the 
ability to charge their time anywhere and their time is needed 
for other duties.
    Another concept that I would like to discuss with you is 
that of early warning syndrome surveillance. Disease reporting 
usually comes from two sources, physicians who are alert and 
pick up signs and symptoms, as well as laboratories that do 
detailed analyses of cultures.
    Well, if we really want to get a head start on an outbreak, 
there are several places across the country that are attempting 
to institute disease syndrome surveillance. The utility of this 
is that it takes data that is already available and creates a 
historical database. This is a computing and data analysis 
challenge, and monitoring things like 911 calls and other 
leading-edge indicators would allow public health and emergency 
officials to understand that something is going wrong in the 
health of their communities.
    They might not know what, but this kind of a technique 
would allow them to notify hospitals and laboratories to look 
hard and look fast to get more specific about what might be 
going wrong. It may make the difference in the ability to get 
that early notice of a disease outbreak in time to take 
lifesaving intervention. The most advanced system in that 
regard that I am aware of is in New York City. They have done 
path-breaking work.
    And with that, I think I will wait for your questions.
    Chairman Lieberman. Thank you.
    Ms. Smithson. Thank you.
    Chairman Lieberman. No, thank you. It was very helpful.
    Talk just a moment about what the purpose of the Civil 
Support Teams of the National Guard was supposed to be.
    Ms. Smithson. I think I should actually let the National 
Guard speak to their purpose because they run the program, but 
if one understands the dynamics of a chemical disaster 
response, this peaks very quickly. If you look at the situation 
that occurred in Tokyo, the victims in that particular instance 
were at the hospital within a matter of a couple of hours.
    Chairman Lieberman. Right.
    Ms. Smithson. Now, the National Guard is saying that these 
teams will go ``wheels up'' in 4 hours. In New York City, I 
believe that they arrived at the World Trade Towers within 12 
hours, perhaps that was 11 hours, and in that particular 
situation, they began to monitor for chemical and biological 
agents. Well, quite frankly, the New York City officials had 
begun to do that hours before, as had the Environmental 
Protection Agency.
    There are a number of exercises and incidents that have 
been related to me from my interviews with regard to how well 
these teams have been able to perform, and simply, they have 
been put in between a rock and a hard place. They are very well 
trained, but unless you have been in the heat of battle, so to 
speak, it is very difficult to apply a lot of the skills that 
they have been asked to master.
    In a biological disaster response, for example, the medical 
component on these teams is four people, and in terms of how 
much medical manpower would be needed, that is pretty much a 
drop in the bucket.
    Chairman Lieberman. Right.
    Ms. Smithson. So, again, these are things we can discuss in 
more detail----
    Chairman Lieberman. It is well stated and that is a 
question we will throw back at those in charge of those 
programs.
    You made a point which has interested me for a while as I 
have focused on the current wave of terrorist attacks and 
concern about chemical and biological, which is the extent to 
which changes that have occurred in our health care system in 
recent years, decades, have put us more on a kind of a ``just 
in time'' inventory basis. I am making a manufacturing 
comparison, but you talked about it in terms of hospital rooms 
available.
    I want to ask you, Dr. Hamburg, to comment on that from 
your background in public health generally. It strikes me that 
if we want to be really ready to respond medically to an 
attack, it does take government intervention, because it is not 
going to normally happen in the health care system as it is 
operating out there today. Am I right?
    Dr. Hamburg. You are exactly right. The current pressures 
in the health care environment have led to an enormous amount 
of downsizing, fewer hospital beds, ``just in time'' purchase 
of pharmaceuticals and supplies, and minimal staffing patterns, 
and that is fine if you want to save money, but it is not what 
you need in the event of a large-scale, potentially 
catastrophic event with many casualties.
    Clearly, we do not want to encourage our health care system 
to add on unnecessary, unutilized beds or services in the event 
that a catastrophic attack will occur or a major natural 
disaster, but I think that what Amy was saying about regional 
planning is absolutely the key. We need today to have 
localities assess what their assets and capabilities are, not 
just in terms of the existing health care system but also 
ancillary facilities and staffing possibilities that could be 
brought to bear in a crisis. Then you need to look at what are 
the State programs and assets and the Federal programs that can 
be brought to bear to add to the local capabilities in a staged 
kind of way, recognizing that, as has already been emphasized, 
that the initial response is going to be truly local and it has 
to build on local capabilities.
    It is absolutely key that as monies go out to States and 
localities to build new programs of preparedness in this 
context, I think that we put a requirement on them to do this 
kind of planning and specify the kinds of elements that they 
need to address in their plans, because again, this is the kind 
of thing where you have to develop a plan, you have to bring 
all the partners together, you have to understand the 
components of that activity, and then you have to practice it.
    Chairman Lieberman. Good idea. Going back to your report on 
the exercise, the simulation of Dark Winter, are you beginning 
to see responses from the government to some of the lessons 
learned from Dark Winter?
    Dr. Hamburg. Well, I think it is a combination of Dark 
Winter and real world experience, I think has put some of these 
issues on the public consciousness in a way that it has never 
been before and in the halls of Congress, as well. Frankly, 
when I used to talk about public health infrastructure needs 
and the surveillance, et cetera, people's eyes would glaze over 
and they would find an excuse to leave the room. Now, people 
that I would never imagine to be interested and supportive of 
these issues suddenly are at the front line in terms of calling 
for greater investments in these areas.
    From the public health perspective, I think it is very 
exciting and I think it really is truly the case that these are 
very sensible investments for the American people because, as 
Amy eloquently described in her testimony, Mother Nature 
herself is a very powerful adversary and we know that we are 
vulnerable to a whole array of infectious disease threats. And 
as I think about the problem of bioterrorism, it is part of a 
continuum of infectious disease threats, but at the farmost 
extreme end. We have allowed our Public Health System to be 
under-funded and inadequately supported and this is the 
critical time to turn that situation around.
    Chairman Lieberman. I agree. The investments we make now in 
reaction to this terrorist crisis will, if we do them right, 
have the effect of strengthening our Public Health System for 
the kinds of challenges that just face us in a more natural 
setting than enemy attack, including the flu epidemic that you 
referred to.
    Dr. Dempsey, if you were taken up to the Federal level and 
asked how best to organize the Federal programs that we have 
talked about today for preparing for responding to chemical and 
biological attacks, what would be the overview of what you 
would do?
    Dr. Dempsey. With organizing the Federal level?
    Chairman Lieberman. Yes.
    Dr. Dempsey. To assist the States or just for the Federal 
response?
    Chairman Lieberman. Generally, and to assist the States, 
yes.
    Dr. Dempsey. Well, I believe that, first, I would have to 
understand their primary roles and responsibilities and assure 
that the interconnections and the collaborative efforts that 
needed to be established between them were put into place and 
actually operationalized.
    And what we have found on the State level, we have similar 
issues about how do we organize these activities at the State 
level, is that we are always long on theory and short on 
application and it is really hard to operationalize how it 
finally works until you try to do it, and I think that takes a 
different level of planning, a very deep understanding of the 
primary roles and responsibilities and how they relate to the 
roles and responsibilities.
    If you look at the way we are organized now, both 
federally, at least the way I view the Federal perspective, is 
that everybody has their roles and responsibilities but they 
are within their discipline and within their authority, and 
that plays out in parallel and not in concert. So you get a lot 
of response, but it is not coordinated and perhaps not as 
effective as it could be.
    I think a focus on the outcomes of what we are trying to 
achieve, if you are going to reorganize or reallocate 
resources, what are the outcomes you are trying to achieve and 
set your programs up or your organizations up to achieve those 
outcomes and then assign back roles and responsibilities. That 
approach, generally, I think, would be far more effective than 
starting from a role and responsibility and trying to figure 
out how to make the collaboration work later.
    Chairman Lieberman. Thanks. We have just completed our 
fifth hour in this room, or yours, anyway, and I do not want to 
keep you much longer, but I want to ask you a last question 
just to bring it back to what is happening here now, because 
obviously we left to go to the meeting with all of the 
Senators, and there are well over 20, maybe approaching 30 or 
just over 30 cases now around Senator Daschle's office in which 
people have been determined to have been exposed to the 
anthrax. And, of course, we have had the other episodes.
    I got a note, and I should not be repeating hearsay, but 
that there was now a finding of anthrax in Governor Pataki's 
New York City office.
    I wanted to ask you, you are experts, you are 
administrators, you have been involved in this, you have 
thought about it, just give me for a couple of minutes each, 
what are your reactions to what is happening now, and if you 
have any particular counsel here in terms of the Capitol or 
generally, I would be happy to hear it.
    Dr. Dempsey. Actually, I have thought about it a lot 
because we have been dealing with it, and I think part of the 
difficulty that we are having with resolving the situation is 
the panic that ensues.
    Chairman Lieberman. That is right.
    Dr. Dempsey. Even the word ``exposure'' and the unknown 
quantity for these agents that are being unleashed and what 
that means for individuals, you cannot see them, you cannot 
predict when they will be out there. And we are seeing a lot of 
individuals who are jumping at shadows, very concerned, 
beginning antibiotic therapy. We have deep concerns that if we 
do not manage this public message from a State, Federal, and 
local level with a united voice, that we will have more 
antibiotic resistance in the future, perhaps against agents 
that we only have one drug that may be effective against it 
now. That is a huge consideration and that is part of the 
management of the public.
    I think the unified approach really is to assure that we do 
establish protocols and procedures for both testing, diagnosis, 
and treatment, and begin to educate people adequately on what 
those protocols are and then adhere to them.
    Part of the difficulty we have had with overloading the 
system is that we have no way to manage that. Everybody wants 
everything evaluated within 24 hours. Everybody wants to be on 
drugs and everyone wants someone to come and investigate. 
Without a way to truly manage that, to manage the public 
response and the official response in a coordinated, concerted, 
unified effort, I think that we may miss something that is 
going on while we are exhausting our resources on something 
that we do not need to exhaust them on and that we create undue 
panic in the public because we have not given them credible 
information on how to protect themselves.
    We have given them good information on what not to do. Do 
not buy masks. Do not stockpile. But we have not said, here is 
something you can do, and I think they are hungry for that. 
That is why they are buying the masks.
    So I would say that good, credible information, timely 
coordination, and a unified approach.
    Chairman Lieberman. Dr. Hamburg, I would ask you to 
respond, and maybe I will focus it a bit because I know you 
have spent some time thinking and working in this area. What 
conclusions do you draw, and I understand you are dealing with 
public information here, about the finding that the anthrax 
sent to Senator Daschle's office was of a more pure variety, 
and I presume, and again, I am going beyond my expertise, the 
fact that so many more people in his office have been exposed 
suggests that this anthrax was moving more widely in the air.
    Dr. Hamburg. Well, I clearly do not know all the facts 
about the investigation or the nature of the material 
identified, but I think it underscores the importance of really 
addressing the problem of access to dangerous pathogens. The 
fact that it has been described as of a higher grade and 
apparently prepared in a way that would suggest an intent to 
make it more harmful reminds us that whoever is doing this is 
intending to do harm and has been able to get access to 
materials that will make the harm done more severe.
    And so I think that this is the time to really look at the 
systems that we have in place to assure that only those who 
have a legitimate use for this organism and other dangerous 
pathogens have them, that we know more about who is using them 
and why. And it underscores our need to really improve 
intelligence in the biological area and I think that public 
health and the scientific community actually has an opportunity 
and an obligation to work more closely with intelligence 
authorities in those collection efforts because I think we have 
expertise that can be very helpful in data collection and 
analysis.
    Chairman Lieberman. That is very interesting. I appreciate 
that, because it is not that this stuff is easy to get, but I 
have learned over the last couple of days even that there is 
more of it around than I would have guessed, so that--and I 
presume there is not much intelligence work being done in this 
area, so you are right. Without compromising anybody's 
independence and etc., the ability to share information between 
the research scientific communities and intelligence agencies 
or law enforcement now will be critically important. Thank you.
    Dr. Smithson, finally.
    Ms. Smithson. Well, I think that the scars from September 
11 are running deep, but the scars that are being created by 
the events that are unfolding now may be even deeper and more 
difficult to address. I echo Dr. Dempsey's concerns in that 
regard and----
    Chairman Lieberman. Unduly, I take it you mean, in other 
words, that it is beyond----
    Ms. Smithson. Yes. A lot of what the American public heard 
in the initial media cycles, I think, blew some of this out of 
proportion, so it is very difficult now when they hear messages 
about these are isolated incidents, that there are lots and 
lots of hoaxes interspersed with these things. What can they do 
to protect themselves? How can we move forward? I am perhaps 
here suggesting a public service information campaign so that 
the messages get repeated often about how to put this threat 
into context.
    In my initial statements about this, I talked about how 
someone was more likely to be the victim of a lightning 
strike--your odds there are one in 600,000--than you are to be 
the victim of a chemical or biological terrorist attack. I have 
used the reference of how we learned to buckle our seat belts 
when we get into the car to reduce the chances that we might be 
injured in a car wreck, but we still drive our cars and we 
still need to open our mail. So we are going to have to learn 
to take some new precautions with our mail. What are those 
precautions? Some of these messages are getting out, but they 
are getting interspersed with a lot of other stuff that, I 
think, is confusing for the American public as well as for 
policy makers.
    Another thing that these incidents illustrate again and 
again is that all emergencies are local. I guess what I would 
advise you to consider is that there are some roles that the 
Federal Government must fulfill, for example, those related to 
research, development, and production of emergency medical 
supplies and the provision of emergency medical manpower, the 
provision of mid- to long-term recovery assistance in the 
aftermath of a disaster. Some of these--a lot of these 
capabilities and resources are already in place.
    But there are some roles that are not appropriate for the 
Federal Government to undertake. Allow me to illustrate that by 
pointing to how training is currently being conducted. The 
Federal Government is hiring contractors, and according to the 
GAO statistics here, training is getting to responders that 
serve only 22 percent of our Nation's population.
    Chairman Lieberman. That is right.
    Ms. Smithson. So we can either go about this the smart way 
or we can continue on a costly and inefficient track. The goal 
here is to get the entire country prepared in an even and 
systematic way, hopefully. It will be tough.
    But, for example, on the training front, the solution there 
is very clear. Institutionalize the training in fire academies, 
in police academies. All paramedics ought to have training with 
regard to this. This needs to be in our medical schools, in our 
nursing schools. Our microbiologists need to have certain 
training in this regard, as do our public health officials. Get 
the Federal Government out of the way there, and that way, I 
think we will get the entire country better prepared.
    There are several common sense solutions, and if you need 
anyone out of my Rolodex from 33 cities to convey these 
messages personally and with much more authority, you are 
welcome to them.
    Chairman Lieberman. Thank you. That is a generous offer.
    You have been very helpful and you have got great 
expertise. You have shared it with us. And I think to the 
extent that you have given statements that are quite balanced 
and proportionate. It is very important to do that.
    Now, obviously there is great anxiety here, as I said long 
ago at the beginning of the hearing, and part of it is because 
we are in a territory that we have not been before within the 
United States. I mean, there have been health epidemics, and in 
some ways, people have been fearful when that has happened. I 
watched it on a relatively small scale about West Nile virus. 
And, of course, earlier in our history, terrible losses 
associated with influenza. I lost my paternal grandmother, who 
I never got to know, in the influenza epidemic of 1918.
    But it seems far away from life as we have known it in 
recent times and that is part of the anxiety, and I do think we 
have to put it in proportion, compare it to other risks that we 
have, and then share information and then, and this comes back 
to the purpose of the hearing, make sure that the government is 
organized as effectively as possible to both prepare for crises 
of this kind and then respond to them, and if we are, then we 
will give the public even greater reason for confidence.
    Anyway, you have helped measurably. This has been a long 
hearing and it has taken at least one unexpected twist, but I 
think it has been valuable, certainly to me and the Committee 
in assisting us in fulfilling our responsibilities to the 
public. So I thank you very much.
    Before we recess, I would like to enter into the record a 
statement from Senator Bunning.
    [The prepared statement of Senator Bunning follows:]

                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    The threat of a biological attack has unfortunately been brought 
home to us during the past couple of weeks.
    Understandably, Americans are nervous.
    Companies and offices are taking extreme measures when opening 
mail, hundreds of employees have been tested for anthrax exposure and 
many Americans have contacted their doctors about getting prescription 
drugs.
    During this time of confusion and anxiety, the American people are 
turning to us for answers.
    We have known for some time that we need to be better prepared to 
respond to a biological or chemical attack. We have taken some steps in 
the past to address these concerns and better prepare our state and 
local governments.
    However, as some of our witnesses will testify today, we have a 
long way to go in being able to adequately handle a large-scale 
biological attack.
    This includes making sure our hospital personnel and others on the 
front line have the training and equipment they need to make the 
fastest diagnosis possible, making sure that we have enough medicine 
stockpiled to treat those infected, and making sure that our state and 
local governments can coordinate and communicate with the appropriate 
Federal personnel during and after an attack.
    The United States has entered a new era. With the events of 
September 11 and the anthrax cases throughout the country, we must 
become more proactive in addressing all types of terrorist threats.
    I want to thank our witnesses for being here today, and taking time 
out of their busy schedules to share with us their expertise on this 
issue.
    Thank you, Mr. Chairman.

    Chairman Lieberman. The record of the hearing will remain 
open for another week for those who may wish to submit 
statements. At this point, I will recess the hearing.
    [Whereupon, at 2:40 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6807.001

[GRAPHIC] [TIFF OMITTED] T6807.002

[GRAPHIC] [TIFF OMITTED] T6807.003

[GRAPHIC] [TIFF OMITTED] T6807.004

[GRAPHIC] [TIFF OMITTED] T6807.005

[GRAPHIC] [TIFF OMITTED] T6807.006

[GRAPHIC] [TIFF OMITTED] T6807.007

[GRAPHIC] [TIFF OMITTED] T6807.008

[GRAPHIC] [TIFF OMITTED] T6807.009

[GRAPHIC] [TIFF OMITTED] T6807.010

[GRAPHIC] [TIFF OMITTED] T6807.011

[GRAPHIC] [TIFF OMITTED] T6807.012

[GRAPHIC] [TIFF OMITTED] T6807.013

[GRAPHIC] [TIFF OMITTED] T6807.014

[GRAPHIC] [TIFF OMITTED] T6807.015

[GRAPHIC] [TIFF OMITTED] T6807.016

[GRAPHIC] [TIFF OMITTED] T6807.017

[GRAPHIC] [TIFF OMITTED] T6807.018

[GRAPHIC] [TIFF OMITTED] T6807.019

[GRAPHIC] [TIFF OMITTED] T6807.020

[GRAPHIC] [TIFF OMITTED] T6807.021

[GRAPHIC] [TIFF OMITTED] T6807.022

[GRAPHIC] [TIFF OMITTED] T6807.023

[GRAPHIC] [TIFF OMITTED] T6807.024

[GRAPHIC] [TIFF OMITTED] T6807.025

[GRAPHIC] [TIFF OMITTED] T6807.026

[GRAPHIC] [TIFF OMITTED] T6807.027

[GRAPHIC] [TIFF OMITTED] T6807.028

[GRAPHIC] [TIFF OMITTED] T6807.029

[GRAPHIC] [TIFF OMITTED] T6807.030

[GRAPHIC] [TIFF OMITTED] T6807.031

[GRAPHIC] [TIFF OMITTED] T6807.032

[GRAPHIC] [TIFF OMITTED] T6807.033

[GRAPHIC] [TIFF OMITTED] T6807.034

[GRAPHIC] [TIFF OMITTED] T6807.035

[GRAPHIC] [TIFF OMITTED] T6807.036

[GRAPHIC] [TIFF OMITTED] T6807.037

[GRAPHIC] [TIFF OMITTED] T6807.038

[GRAPHIC] [TIFF OMITTED] T6807.039

[GRAPHIC] [TIFF OMITTED] T6807.040

[GRAPHIC] [TIFF OMITTED] T6807.041

[GRAPHIC] [TIFF OMITTED] T6807.042

[GRAPHIC] [TIFF OMITTED] T6807.043

[GRAPHIC] [TIFF OMITTED] T6807.044

[GRAPHIC] [TIFF OMITTED] T6807.045

[GRAPHIC] [TIFF OMITTED] T6807.046

[GRAPHIC] [TIFF OMITTED] T6807.047

[GRAPHIC] [TIFF OMITTED] T6807.048

[GRAPHIC] [TIFF OMITTED] T6807.049

[GRAPHIC] [TIFF OMITTED] T6807.050

[GRAPHIC] [TIFF OMITTED] T6807.051

[GRAPHIC] [TIFF OMITTED] T6807.052

[GRAPHIC] [TIFF OMITTED] T6807.053

[GRAPHIC] [TIFF OMITTED] T6807.054

[GRAPHIC] [TIFF OMITTED] T6807.055

[GRAPHIC] [TIFF OMITTED] T6807.056

[GRAPHIC] [TIFF OMITTED] T6807.057

[GRAPHIC] [TIFF OMITTED] T6807.058

[GRAPHIC] [TIFF OMITTED] T6807.059

[GRAPHIC] [TIFF OMITTED] T6807.060

[GRAPHIC] [TIFF OMITTED] T6807.061

[GRAPHIC] [TIFF OMITTED] T6807.062

[GRAPHIC] [TIFF OMITTED] T6807.063

[GRAPHIC] [TIFF OMITTED] T6807.064

[GRAPHIC] [TIFF OMITTED] T6807.065

[GRAPHIC] [TIFF OMITTED] T6807.066

[GRAPHIC] [TIFF OMITTED] T6807.067

[GRAPHIC] [TIFF OMITTED] T6807.068

[GRAPHIC] [TIFF OMITTED] T6807.069

[GRAPHIC] [TIFF OMITTED] T6807.070

[GRAPHIC] [TIFF OMITTED] T6807.071

[GRAPHIC] [TIFF OMITTED] T6807.072

[GRAPHIC] [TIFF OMITTED] T6807.073

[GRAPHIC] [TIFF OMITTED] T6807.074

[GRAPHIC] [TIFF OMITTED] T6807.075

[GRAPHIC] [TIFF OMITTED] T6807.076

[GRAPHIC] [TIFF OMITTED] T6807.077

[GRAPHIC] [TIFF OMITTED] T6807.078

[GRAPHIC] [TIFF OMITTED] T6807.079

[GRAPHIC] [TIFF OMITTED] T6807.080

[GRAPHIC] [TIFF OMITTED] T6807.081

[GRAPHIC] [TIFF OMITTED] T6807.082

[GRAPHIC] [TIFF OMITTED] T6807.083

[GRAPHIC] [TIFF OMITTED] T6807.084

[GRAPHIC] [TIFF OMITTED] T6807.085

[GRAPHIC] [TIFF OMITTED] T6807.086

[GRAPHIC] [TIFF OMITTED] T6807.087

[GRAPHIC] [TIFF OMITTED] T6807.088

[GRAPHIC] [TIFF OMITTED] T6807.089

[GRAPHIC] [TIFF OMITTED] T6807.090

[GRAPHIC] [TIFF OMITTED] T6807.091

[GRAPHIC] [TIFF OMITTED] T6807.092

[GRAPHIC] [TIFF OMITTED] T6807.093

[GRAPHIC] [TIFF OMITTED] T6807.094

[GRAPHIC] [TIFF OMITTED] T6807.095

[GRAPHIC] [TIFF OMITTED] T6807.096

[GRAPHIC] [TIFF OMITTED] T6807.097

[GRAPHIC] [TIFF OMITTED] T6807.098

[GRAPHIC] [TIFF OMITTED] T6807.099

[GRAPHIC] [TIFF OMITTED] T6807.100

[GRAPHIC] [TIFF OMITTED] T6807.101

[GRAPHIC] [TIFF OMITTED] T6807.102

[GRAPHIC] [TIFF OMITTED] T6807.103

[GRAPHIC] [TIFF OMITTED] T6807.104

[GRAPHIC] [TIFF OMITTED] T6807.105

[GRAPHIC] [TIFF OMITTED] T6807.106

[GRAPHIC] [TIFF OMITTED] T6807.107

[GRAPHIC] [TIFF OMITTED] T6807.108

[GRAPHIC] [TIFF OMITTED] T6807.109

[GRAPHIC] [TIFF OMITTED] T6807.110


</pre></body></html>
